SEMIANNUAL REPORT TO CONGRESS                                               MARCH 31, 2004




       MESSAGE FROM TIGTA’S
     ACTING INSPECTOR GENERAL


                                 T
                                      he Treasury Inspector General for Tax Administration
                                     (TIGTA) plays a vital role in the Federal Government
                                     by ensuring the nation’s tax administration system is
                                 operating effectively and is protected internally and
                                 externally. This year marks our fifth year of operation as an
                                 Inspector General (IG) organization. The world has
                                 changed dramatically in the past 5 years, particularly
                                 since September 11, 2001. In these days of terrorist activity
                                 and economic challenge, it is more important than ever
                                 that we promote the efficiency and effectiveness of tax
      Acting Inspector General   administration and safeguard the operation of this key
        Pamela J. Gardiner
                                 national system.

    The results of our work for the past 6 months, from October 1, 2003, through
    March 31, 2004, indicate that TIGTA has risen to the challenges it faces. Our
    accomplishments during this reporting period helped improve tax administration
    and consequently aided taxpayers nationwide. With the issuance of 81 audit
    reports, we identified more than $732 million in cost savings, and an additional
    $3.45 billion in increased or protected revenue. Our audits assessed such
    Internal Revenue Service (IRS) operational and programmatic issues as providing
    quality customer service, information technology modernization, information
    system security, tax compliance initiatives, and erroneous payments.

    To combat fraud, waste, and abuse, our investigative work centered on IRS
    employee and infrastructure security, employee integrity, and external attempts
    to corrupt Federal tax administration. During this reporting period, we received
    3,545 complaints of alleged criminal wrongdoing or administrative misconduct.
    We opened 1,877 investigations and closed 1,989. Additionally, TIGTA’s Office of
    Chief Counsel reviewed 116 proposed regulations and legislative requests.
    Highlights of our work are included in this Semiannual Report to Congress.

    We are proud of all of our accomplishments during the past 5 years. As we
    focus on our future, we look forward to continuing to work with IRS,
    Congressional, and Treasury officials to help the IRS address current and future
    challenges to improve our nation’s tax administration system.




                                                                                        1
SEMIANNUAL REPORT TO CONGRESS            MARCH 31, 2004




            THIS PAGE LEFT BLANK INTENTIONALLY




                                                     2
SEMIANNUAL REPORT TO CONGRESS                                                       MARCH 31, 2004




                  TABLE OF CONTENTS
               (scroll over the entries below to access document links; click to go to link)
                    sscroll
                    scroll

                                                                                               Page

  Message from TIGTA’s Acting Inspector General …….……………..……………….…                                 1

  TIGTA’s Organizational Structure and Mission ……………..………………….……...….                              5

  Promote the Economy, Efficiency, and Effectiveness of Tax Administration …...….                   9
        Providing Quality Customer Service .………………..……….………...…………                                  9
        Information Technology Modernization .…………...…….………………...……                                11
        Information System Security ………………………………….………...…….…….                                     13
        Employee and Infrastructure Security ………………………………..…………..                                  14
        Enhanced Enforcement Activities - Tax Compliance .…..………..……....…..                        15
        Erroneous Payments .……………………….……………………..……..…………..                                         20

  Protect the Integrity of Tax Administration ………………………...………………..…… 23
        Employee Integrity ………………………………………………….…...…….…….. 23
        External Attempts to Corrupt Tax Administration ……..……...…..……………. 27

  Congressional Testimony ...................…......................................……………….…….… 31

  Awards and Special Achievements ..…………...…………………………....…..………. 33

  Appendices

  Appendix I - Audit Statistical Reports
       Audit Reports With Questioned Costs ………….…………….……...….....……..                              35
       Prior Period Reports …….…………………………………………………....…….…                                         35
       Reports With Recommendations That Funds Be Put to Better Use ………….                          36
       Reports With Additional Quantifiable Impact on Tax Administration ………                       37




                                                                                               3
SEMIANNUAL REPORT TO CONGRESS                                    MARCH 31, 2004




                                                                            Page
  Appendix II - Investigations - Statistical Reports
     Investigations Opened and Closed …………………..……...…………….……..….                 39
     Financial Accomplishments …………………….…………...……………….…….…..                     39
     Status of Closed Criminal Investigations …………….…...…………...……….….....        39
     Criminal Dispositions ……..…………………...……………………………………….....                    40
     Administrative Disposition on Closed TIGTA Investigations ……………………….        40
     Complaints/Allegations Received by TIGTA ………………………………………...                 41
     Status of Complaints/Allegations Received by TIGTA ….………...………….…....       41
     IRS Data Regarding Allegations of Misconduct Against IRS Employees ...….…   42
     Report of Employee Misconduct for the Period 10/01/03 - 3/31/04
        Summary by Disposition Groups ……..………………………………………...…..                  42
     Report of Employee Misconduct for the Period 10/01/03 - 3/31/04
         National Summary ……………….……..……………...………………………...…..                     42
     IRS Summary of Substantiated §1203 Inquiries Recorded in ALERTS
        for the Period 10/01/03 - 3/31/04 …….……..……….……………….….…...……             43

  Appendix III - Statistical Reports – Other
     Audit Reports With Significant Unimplemented Corrective Actions ……...….… 45
     Statistical Reports - Other ….…………..…………….……………..…….………..…… 53

  Appendix IV - Audit Products
     October 1, 2003 - March 31, 2004 ……….…………………….………...…………… 55

  Appendix V - Statutory TIGTA Reporting Requirements …….……….…….……..…… 59

  Appendix VI - Section 1203 Standards …...…..……………………...…….....…………. 63

  Hotline Information ………………………………………….……………………………..…. 64




                                                                                  4
SEMIANNUAL REPORT TO CONGRESS                                         MARCH 31, 2004




        TIGTA’S ORGANIZATIONAL
         STRUCTURE AND MISSION

                                     Inspector General




                    Chief Counsel




              Deputy Inspector General               Deputy Inspector General
                      for Audit                         for Investigations



                Assistant Inspector                    Assistant Inspector
              General for Management                  General for Information
                      Services                            Technology




     T   IGTA provides independent oversight of IRS activities, the IRS Oversight
         Board, and the IRS Office of Chief Counsel. Although TIGTA is
         organizationally placed in the Treasury Departmental Offices and reports to
    the Secretary of the Treasury and the Congress, it functions independently from
    the Departmental Offices and all other offices and bureaus within the
    Department. TIGTA’s focus is devoted to all aspects of work related to Federal
    tax administration.

    TIGTA protects the public’s confidence in the tax system by overseeing the IRS
    as it strives to achieve its strategic goals, identifying and addressing the IRS’
    management challenges, and implementing the President’s Management
    Agenda and the Department of the Treasury’s priorities.

    TIGTA’s primary functional offices are the Office of Audit (OA) and the Office of
    Investigations (OI). TIGTA’s Offices of Chief Counsel, Information Technology,



                                                                                  5
SEMIANNUAL REPORT TO CONGRESS                                            MARCH 31, 2004



    and Management Services support OA’s and OI’s efforts. TIGTA’s goal is to
    conduct audits and investigations designed to:

          •   Promote the economy, efficiency, and effectiveness of
              tax administration.
          •   Protect the integrity of tax administration.



                                  TIGTA’s Statutory Mandate
        Protect against external attempts to corrupt or threaten IRS employees.
        Provide policy direction and conduct, supervise and coordinate audits and
          investigations related to IRS programs and operations.
        Review existing and proposed legislation and regulations related to IRS programs
          and operations and make recommendations concerning the impact of such
          legislation or regulations.
        Promote economy and efficiency in the administration of the tax laws.
        Prevent and detect fraud and abuse in IRS programs and operations.
        Inform the Secretary of the Treasury and Congress of problems and deficiencies
          identified and of the progress made in resolving them.



                                      Office of Audit

    TIGTA’s comprehensive, independent performance and financial audits of IRS
    programs and operations focus on mandated reviews and high-risk challenges
    facing the IRS. The audits address a variety of issues, including:

          •   Information technology
          •   Computer and employee security
          •   Tax compliance initiatives
          •   Performance and financial management
          •   Taxpayer protection and rights
          •   Tax return processing
          •   Customer service
          •   Tax fraud

     TIGTA also performs audits to determine if the IRS adequately ensures fair
     and equitable treatment of taxpayers. Audit recommendations result in
     cost savings and increased or protected revenue, reduction of taxpayer
     burden, and protection of: taxpayer rights and entitlements; taxpayer
     privacy and security; and IRS resources.




                                                                                           6
SEMIANNUAL REPORT TO CONGRESS                                              MARCH 31, 2004



                                  Office of Investigations

    TIGTA protects the Department of the Treasury’s ability to collect revenue owed
    to the Federal Government. TIGTA accomplishes this goal by providing
    comprehensive investigative services focused on three programs: IRS employee
    integrity, IRS employee and infrastructure security, and external attempts to
    corrupt Federal tax administration.

     TIGTA INVESTIGATIONS PROTECT TAX ADMINISTRATION            In order to focus investigative
                                                                resources on its primary
                           Employee Integrity
                                                                program areas, TIGTA
                                                                developed and implemented
                                                                a performance model to help
                                                                it achieve the most return on
                                                                investment for the IRS, the
       External Attempts to                 Employee and        Treasury Department, and the
           Corrupt Tax                  Infrastructure Security
          Administration
                                                                American taxpayer. TIGT A,
                                                                through its investigative
             TIGTA Investigative Performance Model
                                                                program, pursuant to its
                                                                unique statutory charge, has
    responsibility to prevent and detect fraud, waste, and abuse in IRS
    programs and operations, including:

         •   Investigating allegations of criminal violations that impact tax
             administration, and of serious administrative misconduct by IRS
             employees.
         •   Conducting proactive investigative initiatives that ferret out
             criminal and administrative misconduct in the administration of IRS
             programs.
         •   Operating a Criminal Intelligence Program that manages threat
             information that could impact IRS employees and functions.
         •   Investigating assaults and threats made against IRS employees,
             facilities, and data infrastructures.
         •   Investigating fraud, waste, and abuse involving IRS procurements.
         •   Conducting Integrity/Fraud Awareness Program presentations for
             IRS employees and others, such as tax practitioners and
             community groups.
         •   Operating a hotline to receive and process complaints of fraud,
             waste, abuse, and misconduct involving IRS employees and
             programs.
         •   Conducting forensic examinations of physical and electronic
             evidence to support investigations.
         •   Using technical and investigative support, equipment, training,
             and other specialized services to enhance investigative
             operations.


                                                                                         7
SEMIANNUAL REPORT TO CONGRESS                                                          MARCH 31, 2004




                                         AUTHORITIES
    TIGTA has all the authorities granted under the Inspector General Act of 1978, as
    amended.1 TIGTA also has access to tax information in the performance of its
    tax administration responsibilities and the obligation to report potential criminal
    violations directly to the Department of Justice. The IG and the Commissioner of
    Internal Revenue have established policies and procedures delineating
    responsibilities to investigate potential criminal offenses under the Internal
    Revenue laws.

    In addition, the IRS Restructuring and Reform Act of 1998 (RRA 98)2 amended
    the Inspector General Act of 1978 to give TIGTA statutory authority to carry
    firearms, execute and serve search and arrest warrants, serve subpoenas and
    summons, and make arrests as set forth in Section (§) 7608(b)(2) of the Internal
    Revenue Code (I.R.C.).




    1
     5 U.S.C.A. app. 3 (West Supp. 2003).
    2
     Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C.,
    5 U.S.C. app., 16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and
    49 U.S.C.).


                                                                                                      8
SEMIANNUAL REPORT TO CONGRESS                                                           MARCH 31, 2004




        PROMOTE THE ECONOMY,
    EFFICIENCY, AND EFFECTIVENESS
        OF TAX ADMINISTRATION

            PROVIDING QUALITY CUSTOMER SERVICE

    T     he IRS’ mission is to provide America’s taxpayers top-quality service by
          helping them understand and meet their tax responsibilities, and by
          applying the tax laws with integrity and fairness to all. Customer service is a
    major concern of the Congress and other stakeholders. The RRA 98 mandated
    the IRS be more responsive to customer needs. There are many ways in which
    the IRS provides customer service, such as walk-in and toll-free telephone
    assistance, electronic customer service, and written communications to
    taxpayers. The IRS must also implement tax law changes and plan for activities
    and resources to ensure accurate and timely tax return processing during the
    filing season.3 The effectiveness of each of these services influences a
    taxpayer’s ability and desire to comply voluntarily with the tax laws.

    Overall, the 2003 Filing Season went well and most of the 122 million individual
    income tax returns received through May 30, 2003, were processed timely and
    accurately with appropriate refunds issued timely. The IRS also implemented
    correctly most, but not all, key tax law changes. TIGTA reported issues with the
    retirement savings contribution credits and potential unclaimed Additional Child
    Tax Credits (ACTC) that could result in the loss of taxpayer entitlements. TIGTA
    also identified instances of taxpayers receiving “dual benefit” from the tuition
    and fees deduction and the education credit, and wrongfully taking
    deductions for student loan interest, both of which could result in erroneous tax
    reductions. TIGTA recommended the IRS continue to notify taxpayers who
    appear to be eligible for the ACTC and strengthen controls to prevent some
    taxpayers from receiving tax reductions by claiming the tuition and fees
    deduction when they have also claimed an education credit. IRS
    management agreed with our recommendations. TIGTA is following up on
    these conditions during its review of the 2004 Filing Season.

    The Congress has given the IRS a goal of having at least 80 percent of all tax
    returns electronically filed (e-file) by Calendar Year (CY) 2007. At present, the
    majority of e-filed tax returns are processed by Authorized IRS e-file Providers,


    3
      The filing season is the period from January through mid-April when most individual income tax returns
    are filed.


                                                                                                        9
SEMIANNUAL REPORT TO CONGRESS                                             MARCH 31, 2004



    called Electronic Return Originators (ERO). According to the IRS, over
    154,000 EROs are authorized to participate in the IRS’ e-file Program.

    The IRS regulates EROs through an application screening process and a
    monitoring program. TIGTA reported the IRS continues to authorize individuals to
    participate in the e-file Program without ensuring they have met all required
    screening checks. In 2003, the IRS took steps to strengthen its ERO monitoring
    program by requesting computer programming that will monitor continuously
    the tax accounts of EROs for suspect transactions. However, weaknesses in the
    applicant screening and monitoring program have allowed filing fraud by EROs.
    TIGTA recommended strengthening the ERO screening and monitoring program
    and developing goals and measures to assess the effectiveness of the
    monitoring program. IRS management agreed to take action in this area.

    In response to Congressional concerns throughout 2003, TIGTA evaluated
    whether IRS employees in Taxpayer Assistance Centers (TAC) provide accurate
    and timely responses to taxpayer questions. From January through October
    2003, TIGTA auditors asked 679 tax law questions in 173 TACs and found IRS
    employees answered 70 percent of the questions correctly. The IRS continues to
    improve the quality of service at the TACs, and TIGTA commends the IRS for
    taking immediate action on issues identified in previous audit reports. The IRS
    has been actively implementing changes, which TIGTA believes have increased
    the accuracy rates compared to the same period in CY 2002.

    Although accuracy rates are increasing, additional improvements are needed
    to provide taxpayers top-quality assistance. TIGTA recommended the IRS revise
    the Quality Assurance Program to include a systematic methodology to select
    scenarios and ensure the accuracy and sufficiency of captured information. IRS
    management agreed with the recommendation and has initiated corrective
    action. However, IRS management continues to disagree with TIGTA’s method
    when computing the accuracy rate. They do not believe TIGTA’s reported
    accuracy rates are a true measure of the quality of responses provided at TACs.
    Excluding the referrals to publications, service denied, and referrals to other
    employees, brings the accuracy rate to 75 percent, which IRS management
    recognizes is still inadequate.
    Report Reference Nos. 2004-40-024, 2004-40-003, 2004-40-013, 2004-40-035,
    2004-40-037, and 2004-40-065 (scroll over report number for weblink; click to go to link)

    Many aspects of the taxpayer experience in accessing the IRS’ toll-free
    telephone system were improved significantly during the 2003 Filing Season.
    However, the IRS has opportunities to enhance further the taxpayer experience
    and reduce the costs of providing toll-free telephone services. A major
    improvement opportunity involves continuing difficulties with routing calls initially
    to the right Customer Service Representative (CSR). For the 2003 Filing Season,
    the IRS used call screeners to route tax law calls manually, at a cost of almost
    $3.6 million. Another improvement opportunity involved reducing high Assistor

                                                                                            10
SEMIANNUAL REPORT TO CONGRESS                                                               MARCH 31, 2004



    Availability4 levels. The IRS experienced an availability level of 11.2 percent
    versus a planned level of 5.5 percent, at an estimated additional cost of almost
    $6.4 million. In addition, the IRS still does not have a financial system that will
    track its cost-per-call accurately.

    To address call routing problems, TIGTA recommended the IRS develop a set of
    key numerical identifiers taxpayers would select to link their calls to the correct
    tax law application, revise the menu scripts for tax law lines and test them for
    usability prior to implementation, and establish separate toll-free numbers for
    general account and tax law calls. To address continued high Assistor
    Availability levels, TIGTA recommended the IRS reevaluate whether some
    applications would benefit by being combined into a more pooled
    environment, retrain the CSRs so they can be transferred as needed to those
    applications for which availability is lowest, and reduce either staffing or hours of
    operation during those times of day when call demand is extremely low. TIGTA
    also recommended the IRS develop an Activity-Based Costing system that
    captures and reports reliably both the total cost and the cost-per-call of
    providing services on each toll-free product line. With the exception of
    developing a reliable costing system, IRS management did not agree with our
    recommendations. In addition, IRS management did not agree with TIGTA’s
    estimates of the costs of using screeners to route calls manually and those of
    Assistor Availability.
    Report Reference No. 2004-30-038


     INFORMATION TECHNOLOGY MODERNIZATION
    The IRS currently is modernizing its computer systems and business processes and
    practices, in a program called Business Systems Modernization (BSM). Since the
    inception of the BSM Program, it has been designated as high risk, in part
    because of its size, complexity, and immense importance to improving IRS
    performance and accountability. As part of the BSM Program, the IRS and its
    modernization contractors have worked to implement projects intended to
    improve tax administration and internal management. To assist in this effort,
    TIGTA has reviewed several systems under development and provided
    recommendations for improvement.

    The e-Services project will provide a set of Web-based business products as
    incentives to third parties to increase e-filing, in addition to providing electronic
    customer account management capabilities. Although the initial release of the
    e-Services system was deployed in late August 2003, the project has continued
    to experience delays and cost increases due to requirements changes and

    4
      Assistor Availability is the time CSRs are available to take calls, although no calls are coming in for
    their specific skills. The IRS defines Assistor Availability as “the percent of actual workload hours spent in
    an available state.”


                                                                                                             11
SEMIANNUAL REPORT TO CONGRESS                                                        MARCH 31, 2004



    testing environment problems. TIGTA identified opportunities for improvement in
    business case development, requirements management, and testing oversight.

    TIGTA recommended the Chief Information Officer (CIO) ensure system
    requirements be fully developed before project development begins and
    changes after that point meet stringent criteria. Additionally, future
    submissions of project information should include up-to-date cost and
    schedule information. To improve testing, the CIO should require the BSM
    Office (BSMO) develop incentives to increase PRIME contractor5
    accountability in the areas of software quality and testing. A process should
    also be established to review and accept test plans before allowing the PRIME
    contractor to begin testing. The IRS agreed with most of the
    recommendations and is taking action to address the issues identified.

    The Integrated Financial System (IFS) is intended to modernize the IRS’ financial
    systems and processes. The first release of the IFS will include such modules as
    Accounts Payable, Accounts Receivable, and the General Ledger. The IRS and
    PRIME contractor have made progress toward delivering the first release of the
    IFS by beginning important testing activities and ensuring compatibility with key
    infrastructure components. In addition, the IFS testing team developed test
    cases that, for the most part, contained a set of conditions, data, and expected
    results for a particular test objective; a corresponding test script to provide
    instructions to carry out the test case; and a test folder to document the results.
    Further, the testing team prepared a matrix to map accounting requirements to
    the corresponding test cases.

    While progress has been made, testing practices could be improved, project
    costs have increased, some functionality has been postponed, and disaster
    recovery may not be optimal or fully tested prior to implementation. In addition,
    some test cases and test scripts were incorrect or incomplete, and the
    requirements matrix did not always provide an accurate traceability of
    requirements to be tested.

    To help ensure a high-quality system is delivered, TIGTA recommended the CIO
    ensure testing practices are strengthened in future tests, the business risks of
    untimely IFS implementation are tracked formally, and disaster recovery
    capabilities are implemented and tested as soon as possible. In addition, the
    Chief Financial Officer, in concert with IFS project management, should ensure
    subsequent test plans, cases, and scripts are complete and accurate, and
    all applicable financial system requirements can be readily accounted for
    during the testing process. IRS management agreed to most of these
    recommendations and is taking corrective action.
    Report Reference Nos. 2004-20-036, 2004-20-001, and 2004-10-052

    5
      The PRIME contractor is the Computer Sciences Corporation, which heads an alliance of leading
    technology companies assisting the IRS with modernizing its computer systems and related technology.


                                                                                                           12
SEMIANNUAL REPORT TO CONGRESS                                          MARCH 31, 2004



    The Federal Financial Management Improvement Act of 1996 (FFMIA)6 requires
    agencies to maintain financial management systems that comply substantially
    with Federal requirements, or establish a remediation plan with resources,
    remedies, and intermediate target dates to bring the agency into substantial
    compliance. The FFMIA further mandates IGs report to the Congress instances
    and reasons when an agency has not met intermediate target dates.

    TIGTA reviewed the IRS’ remediation plan and identified certain intermediate
    target dates were missed, extended, or were not established. The analysis also
    showed remediation plan resources were not always listed or updated to reflect
    current cost information. Reasons provided by the IRS for these issues centered
    on the delays and revisions to the plans of the individual financial management
    projects that are listed in the remediation plan. TIGTA did not offer specific
    recommendations, but did comment the IRS needs to actively address and
    continue to communicate the challenges it faces concerning the establishment
    of accurate and consistent intermediate target dates and resource estimates in
    light of the implementation uncertainty of significant IRS financial management
    projects. IRS management agreed with the conditions identified in the report.
    Report Reference No. 2004-10-080


                     INFORMATION SYSTEM SECURITY
    System administrators and security specialists have day-to-day responsibility for
    ensuring IRS computer systems are set up and maintained in a secure manner.
    Previous audits identified security vulnerabilities indicating these duties have not
    always been performed effectively. Recent evaluations of servers and
    workstations at five locations again identified significant security vulnerabilities.
    Employees with key security responsibilities did not have sufficient training and
    were not clear about their responsibilities, and duties were not separated
    properly and, in some cases, were duplicated. TIGTA recommended the IRS
    train these employees and develop a methodology to evaluate their
    performance with respect to security requirements. The IRS agreed with the
    recommendations and is addressing the findings as part of its strategy for
    eliminating computer security as a material weakness under the Federal
    Managers’ Financial Integrity Act of 1982.7
    Report Reference No. 2004-20-027

    The IRS has over 900 contracts with vendors and consultants to conduct many
    activities for tax administration. Contractors are involved extensively in the IRS’
    information systems projects, including supplying computer hardware and
    software and designing and developing sensitive computer systems. Because

    6
        31 U.S.C. § 3512.
    7
        31 U.S.C. §§ 1105, 1113, 3512 (2000).



                                                                                    13
SEMIANNUAL REPORT TO CONGRESS                                                 MARCH 31, 2004



    these contractors commonly are given access to IRS computer systems and, in
    some cases, taxpayer data, they should be held to the same security standards
    as IRS employees.

    Contractor personnel assigned to an IRS modernization project committed
    numerous security violations that placed IRS equipment and taxpayer data
    at risk. In some cases, contractors blatantly circumvented IRS policies and
    procedures even when security personnel identified inappropriate practices.
    IRS employees did not carry out their responsibilities for ensuring adequate
    security on contractor workstations and servers and for overseeing contractor
    activities. The IRS provided workstations to contractors that did not always
    comply with IRS policies and procedures, and contractors added
    unauthorized software to these computers. As a result, the likelihood of
    unauthorized disclosures of taxpayer information and the spread of virus
    infections was increased significantly. TIGTA recommended contractors’
    access privileges be limited and their activities monitored. In addition, all
    contractor employees’ computer workstations should be updated to meet
    IRS standards. IRS management agreed with these recommendations and is
    taking corrective action.
    Report Reference No. 2004-20-063 (Limited Official Use)


      EMPLOYEE AND INFRASTRUCTURE SECURITY

    Employee and infrastructure
                                              TIGTA’s Criminal Intelligence Program
    security is a critical element in
    protecting the Treasury               TIGTA’s commitment to protect the IRS against
    Department’s ability to               threats and assaults includes the operation of a
    administer the Federal tax laws.      nationwide Criminal Intelligence Program. This
    Threats and assaults against IRS      Headquarters-directed initiative is designed to
                                          coordinate the agency’s field investigations of
    employees, facilities, and data       threats, assaults, and terrorist acts targeted
    infrastructure impede the             against the IRS. TIGTA utilizes this program to
    Treasury Department from              coordinate TIGTA’s participation in FBI Joint
    effective tax administration.         Terrorism Task Forces throughout the country
    Historically, IRS buildings and       and to assist IRS in developing and enhancing
                                          security protocol at all IRS facilities in an effort to
    operations have been targets
                                          deter and prevent terrorist attacks and ensure
    of those who advocate                 IRS employee safety and infrastructure security.
    violence against the Federal
    Government. Since TIGTA has the statutory responsibility to investigate activities
    involving threats to IRS personnel and facilities, it dedicates significant attention
    to deterring, detecting, and investigating threats from both foreign and
    domestic sources.




                                                                                                14
SEMIANNUAL REPORT TO CONGRESS                                         MARCH 31, 2004



    The following cases are examples of IRS Employee and Infrastructure Security
    investigations TIGTA conducted during this reporting period.

    Individual Charged with Threatening to Blow Up Building

    On February 3, 2004, an individual was charged in Texas with threatening to
    damage and destroy a building by use of an explosive. The individual called
    the IRS office about a tax refund and asked if it would be offset to pay
    delinquent child support. The caller allegedly expressed anger over the IRS
    allowing this and threatened to blow up the building.

    Individual Charged with Threatening to Kill IRS Employees

    On February 13, 2004, an individual was charged in Texas with making threats to
    IRS employees acting in their official capacities. In response to an IRS notice
    sent to another taxpayer, the individual claimed to have Power of Attorney
    (POA) to represent the taxpayer before the IRS, and stated intention to do so.
    When told the POA form permitting the individual to represent the taxpayer
    could not be located, the individual became angry and threatened to shoot
    and kill any IRS agents approaching the home.

    Individual Charged with Mailing Threatening Letters to Public Officials

    On November 19, 2003, an individual was indicted in South Dakota for mailing
    letters containing a threat. The individual allegedly mailed written
    communications to a Senator, an Assistant Attorney General, and a TIGTA
    Special Agent containing a threat to commit murder of another person.

    Individual Arrested for Threatening to Kill TIGTA Special Agent

    On March 12, 2004, an individual was arrested in California for threatening to kill
    a Federal law enforcement officer. The individual allegedly contacted the IRS
    toll-free telephone number and made statements about threatening to kill a
    TIGTA Special Agent. The individual was allegedly identified as a former IRS
    employee and blamed the TIGTA Special Agent for the loss of a job.



         ENHANCED ENFORCEMENT ACTIVITIES –
                  TAX COMPLIANCE
    Correspondence examinations of taxpayer records are conducted through the
    mail and generally involve the IRS asking taxpayers for more support on one or
    two simple tax issues. TIGTA auditors determined correspondence examinations
    did not always address strategic noncompliance priorities, and the Small
    Business/Self-Employed (SB/SE) Division’s Campus Correspondence Examination

                                                                                  15
SEMIANNUAL REPORT TO CONGRESS                                                          MARCH 31, 2004



    Program could be used more effectively to reduce the tax gap and increase
    voluntary compliance. In addition, the IRS does not always use the most
    cost-effective method to examine tax returns, and the current Examination
    Workload Selection Process results in inequitable treatment of taxpayers.

    TIGTA recommended the IRS expand the tax issues that can be selected for
    correspondence examination to ensure more of the inventory addresses
    strategic noncompliance priorities, initiate any necessary training programs, and
    select the most cost-effective examination techniques based on cost and yield
    data. IRS management agreed the Campus Correspondence Examination
    Program should work more cases dealing with strategic priorities and plans to
    expand the tax issues and types of tax returns selected for this Program’s
    inventory, after a period of limited testing. In addition, IRS management agreed
    to initiate necessary training programs to ensure the tax examiners have the skills
    to examine additional types of SB/SE tax issues. However, SB/SE Division
    management stated the RRA 98 prevented them from using cost and yield
    information to measure program performance. SB/SE Division management also
    disagreed with TIGTA’s assessment of their use of the most cost-effective
    examination technique and their fair and equitable treatment of taxpayers.
    Report Reference No. 2004-30-005

    In October 2002, the IRS initiated the return examination phase of the National
    Research Program (NRP) to gather the data it needs to measure taxpayer
    compliance and support its strategic planning process. The NRP is expected to
    provide essential information that will allow the IRS to identify the tax returns with
    the highest compliance risks and reduce the burden on compliant taxpayers.
    The IRS planned to complete the NRP cycle for 41,000 individual tax returns in
    time to update the return selection formulas for 2005. However, delays occurred
    in installing computer servers, upgrading computer software, and assigning
    cases. As a result, formulas for selecting tax returns for examination will not be
    updated until 2006.

    The IRS’ efforts to reduce the burden of NRP examinations have yielded some
    positive results. In the cases TIGTA reviewed, wages, interest, and dividends
    generally were validated before contact with taxpayers, where applicable.
    However, 85 percent of the Forms 1040 TIGTA reviewed had a Schedule A8
    and/or a Schedule C9 attached, and the vast majority of the total line items on
    these schedules still had to be validated during the face-to-face contact
    portion of the examination process. Certain operational issues could also
    adversely affect the study results or the goal to minimize taxpayer burden.

    TIGTA recommended the IRS perform a thorough post-evaluation of the 2002
    NRP and ensure similar problems are minimized for the next NRP cycle. In

    8
        U.S. Individual Income Tax Return (Form 1040) Schedule A 2001 - Itemized Deductions.
    9
        U.S. Individual Income Tax Return (Form 1040) Schedule C 2001 - Profit or Loss From Business.


                                                                                                        16
SEMIANNUAL REPORT TO CONGRESS                                                             MARCH 31, 2004



    addition, TIGTA recommended the IRS revise classroom instruction regarding
    document request preparation, visit selected areas to help ensure examinations
    that were not started or were recently started are completed by the September
    2004 deadline, incorporate random sampling in the NRP process, and develop
    interim milestones to help guide the next NRP cycle. IRS management agreed
    with most of the recommendations and is implementing corrective action.
    Report Reference No. 2004-30-044

    In response to the tragic events of September 11, 2001, the Congress passed,
    and the President signed into law, the Uniting and Strengthening America by
    Providing Appropriate Tools Required to Intercept and Obstruct Terrorism Act of
    2001(USA PATRIOT Act).10 This new law made changes to the Bank Secrecy Act
    (BSA),11 effectively including financial institutions in the war on terrorism.12 The IRS
    performs compliance checks of non-bank financial institutions as part of its BSA
    compliance check program. This program, however, does not have meaningful
    performance measures and the risk of undetected noncompliance still exists. In
    addition, management information system data are not analyzed fully, case
    selection is not risk-based, cases do not have the documentation necessary to
    assess civil penalties, examiners cannot access Suspicious Activity Reports (SAR)
    for better case development, and education and outreach should be
    coordinated better with the Financial Crimes Enforcement Network (FinCEN). If,
    during the performance of a BSA compliance check, IRS examiners encounter
    large and suspicious transactions13 between the businesses under review and
    their customer(s), the examiners are required to prepare an Anti-Money
    Laundering referral. These referrals are forwarded for consideration of an
    income tax examination of the individual involved with the transactions.
    Income tax examinations from these referrals declined 47 percent from
    June 2002 to June 2003. The IRS has now established these referrals as a
    high-priority item for Fiscal Year (FY) 2004.

    TIGTA reported, however, the Anti-Money Laundering referrals were not always
    evaluated comprehensively and selected for examination. Currency
    transaction information reports from financial institutions, trades, and businesses
    could also be used more effectively in the identification of taxpayers for
    potential examinations. Although the IRS revised its priority examination areas to
    include these referrals for FY 2004, it still does not consider all currency

    10
       Pub. L. No. 107-56, 115 Stat. 272 (2001).
    11
       Titles I and II of Pub. L. No. 91-508, 84 Stat. 1114, as amended, codified at 12 U.S.C. §1829b, 12 U.S.C.
    §§1951-1959, and 31 U.S.C. §§5311-5330. Regulations implementing Title II of the Bank Secrecy Act
    (codified at 31 U.S.C. §§5311-5330) appear at 31 C.F.R. part 103. The Secretary has delegated the
    authority to administer Title II of the Bank Secrecy Act to the Director of the Financial Crimes Enforcement
    Network.
    12
       The BSA requires the filing of information reports, by both banks and non-bank financial institutions such
    as check cashing businesses and casinos, regarding significant currency transactions.
    13
       Suspicious transactions include large cash deposits with inadequate records.




                                                                                                          17
SEMIANNUAL REPORT TO CONGRESS                                           MARCH 31, 2004



    transaction information in the selection process. For example, the selection of
    non-filing taxpayers for examination is based on the amount of known potential
    income, such as wages and dividends, but does not consider specifically
    whether the taxpayer also has significant cash activity. The IRS estimates there
    were over 300,000 potential non-filers with $22 billion in currency transaction
    activity in Tax Year (TY) 2002. While the filing of a currency transaction report
    does not equate to unreported income, the presence of large transactions
    indicates the individual deals in large amounts of cash and may be involved in
    some type of ongoing business activity.

    For the BSA compliance check program, TIGTA recommended the IRS establish
    measurable performance-based indicators, ensure the management
    information system provides useful reports for monitoring program performance,
    develop standardized risk-based case selection criteria, implement a
    centralized quality review process, and coordinate with the FinCEN on
    education and outreach strategies and to secure access to SARs. In addition,
    the IRS should develop a review checklist or other similar methodology to assist
    in ensuring all relevant factors are considered in evaluating Anti-Money
    Laundering referrals, and begin using currency transaction information to aid in
    the selection of individuals and businesses for income tax examinations. IRS
    management agreed with the recommendations and is implementing some
    corrective action; however, TIGTA believes more needs to be done to use these
    reports better to identify non-filer cases.
    Report Reference Nos. 2004-30-068 and 2004-30-074

    Upon completing an investigation where criminal violations of the law have
    been documented, the Criminal Investigation (CI) function forwards the results
    of the investigation to the Department of Justice for prosecution. The
    prosecution process could result in a sentence being imposed on the subject,
    which may include conditions relating to the settlement of civil tax liabilities such
    as the filing of tax returns or payment of tax liabilities. The CI function should
    take whatever steps are necessary to initiate appropriate legal action in any
    instance where subjects have failed to comply with the conditions of their
    sentence relating to the settlement of civil tax liabilities.

    TIGTA’s review of the CI probation-monitoring program determined existing IRS
    procedures did not effectively ensure convicted criminals, who did not comply
    with the conditional terms of their sentences requiring the settlement of their IRS
    tax liabilities, were reported to the courts for additional legal action, if necessary.
    The IRS procedures were either unclear or did not assign specific responsibility for
    monitoring taxpayer accounts. In addition, the CI function’s Management
    Information System (CIMIS) contained data errors that could impact analyses
    used for internal management decisions or results presented in ad hoc reports
    provided to stakeholders.



                                                                                         18
SEMIANNUAL REPORT TO CONGRESS                                                          MARCH 31, 2004



    TIGTA recommended IRS management develop clear and concise guidelines
    to define responsibilities and procedures to ensure the IRS controls and
    monitors the accounts of criminal subjects whose court sentences require the
    settlement of civil tax liabilities. In addition, TIGTA recommended IRS
    management ensure court documents are verified, create a periodic system
    report for first-line managers, and seek the advice of IRS Chief Counsel
    regarding the disclosure of tax returns and tax return information to probation
    officers to improve monitoring, develop a process to verify and validate the
    data in the CIMIS, and assess the clarity of guidance for coding some data
    fields. CI management generally agreed with the recommendations and will
    take steps to enhance the process.
    Report Reference No. 2004-10-060

    The Tax Exempt and Government Entities (TE/GE) Division’s Independent Review
    Process (IRP) was created to provide TE/GE Division management with an
    internal mechanism to ensure consistency, fairness, and accuracy related to
    processing of complex cases. The TE/GE Division’s IRP was envisioned as early as
    1999, as part of the original plan to create the TE/GE Division. While the
    stand-up14 of the TE/GE Division was completed in December 1999, the IRP did
    not become operational until March 2001 when the position of the Senior
    Technical Advisor was filled. TIGTA determined TE/GE Division management
    followed established procedures when referring cases to the IRP. However,
    press coverage related to TE/GE Division management’s actions resulted in
    confusion and suspicion regarding the IRP. Effective August 25, 2003, the
    Commissioner, TE/GE Division, eliminated the IRP.

    In addition, the extensive media coverage of the TE/GE Division management’s
    actions related to the IRP, coupled with the IRS’ limitations on discussing any
    details related to particular cases due to I.R.C. Section 6103, could result in a
    perception by external stakeholders the IRS has changed its position on
    allowable political activity by charitable organizations. TIGTA believes
    additional clarification on this issue is necessary. As a result, TIGTA
    recommended TE/GE Division management prepare and issue guidance to
    reemphasize the IRS’ position on political activity and private benefit related to
    I.R.C. Section 501(c)(3) organizations. TE/GE Division management agreed with
    the recommendation.
    Report Reference No. 2004-10-045 (Limited Official Use)




    14
      Stand-up is defined as the first day upon which a group or organization begins to operate under a new
    design.


                                                                                                       19
SEMIANNUAL REPORT TO CONGRESS                                                      MARCH 31, 2004




                             ERRONEOUS PAYMENTS
    Stewardship responsibility over public funds is a major challenge facing IRS
    management. Both the President and the Congress have expressed concern
    with the large amount of erroneous or improper payments made by Federal
    agencies. Two recent pieces of legislation – the Improper Payments
    Information Act of 200215 and Section 831 of the National Defense
    Authorization Act for FY 200216 – provide an impetus for all agencies to address
    systematically improper payment activity annually, and to identify and recover
    contract overpayments. Improper and erroneous payments include
    inadvertent errors, payments for unsupported or inadequately supported
    claims, payments for services not rendered, payments to ineligible
    beneficiaries, and payments resulting from outright fraud and abuse by
    program participants and/or Federal employees.

    The Earned Income Tax Credit (EITC) Program, a major Federal effort to assist
    the working poor, is a refundable credit available to taxpayers who file returns
    with certain earned income. The EITC was established to offset the impact of
    Social Security taxes on low-income families and encourage them to seek
    employment rather than welfare. Historically, the EITC Program has been
    vulnerable to high rates of noncompliance (overclaims),17 which has led the
    IRS to declare it a material weakness. The IRS estimates that, of the $31.3 billion
    in EITC claims made by taxpayers for TY 1999, $8.5 to $9.9 billion (27 to
    32 percent) should not have been paid. The General Accounting Office has
    listed the IRS’ administration of the EITC Program among the high-risk areas for
    the Federal Government.

    IRS efforts to improve the administration of the EITC Program are ongoing. The
    IRS reports it has denied approximately $2.25 billion in erroneous claims since
    September 2000, and it has implemented a number of initiatives targeting
    outreach, education, and compliance efforts. The IRS has initiated a significant
    change to the way it will address EITC noncompliance. This includes conducting
    an EITC Proof of Concept Test (Test) to validate EITC applicants who meet
    certain pre-certification criteria and require new information on EITC returns.

    In preparing for the 2004 Filing Season, IRS EITC Program management designed
    the Test to focus on selecting taxpayers whose EITC claims based on qualifying
    children may be unsubstantiated. TIGTA auditors determined the IRS has a
    good process for evaluating the results of this selection process. However, the
    IRS cannot determine if the examination selection process ensures resources are
    being used to provide the greatest cost-benefit because it does not use cost

    15
       Pub. L. No. 107-300, 116 Stat. 2350.
    16
       Pub. L. No. 107-107, 115 Stat. 1012, 1186.
    17
       An EITC overclaim is the amount of the EITC claimed by taxpayers above the amount to which they
    are entitled.


                                                                                                         20
SEMIANNUAL REPORT TO CONGRESS                                       MARCH 31, 2004



    data and yield in the evaluation of the selection process. Additionally, the IRS
    has an effective process to test the child residency requirements, and used an
    appropriate systemic sampling approach to select the sample for the Test and
    validate the data. But, controls over the Test need to be strengthened and the
    IRS needs to complete a cost-benefit analysis of closed case data in order for
    the IRS to be able to measure and analyze its success effectively. IRS
    management agreed with the recommendations.
    Report Reference Nos. 2004-40-004 and 2004-40-032




                                                                                21
SEMIANNUAL REPORT TO CONGRESS            MARCH 31, 2004




            THIS PAGE LEFT BLANK INTENTIONALLY




                                                     22
SEMIANNUAL REPORT TO CONGRESS                                           MARCH 31, 2004




         PROTECT THE INTEGRITY OF
           TAX ADMINISTRATION

                               EMPLOYEE INTEGRITY

     I RS employee misconduct undermines the public’s trust in the IRS and, as a
       result, impedes effective and efficient Federal tax administration. Many of
       TIGTA’s criminal and administrative investigations are based on allegations or
    information indicating IRS employees have misused the public trust. This abuse
    by IRS employees manifests itself in a variety of ways, including: extortion, theft,
    unauthorized access to and disclosure of confidential taxpayer data, misuse of
                                                               IRS computer systems,
              TIGTA’s Strategic Enforcement Division           taxpayer abuses, and
                                                               financial fraud. During the
         TIGTA utilizes a variety of tools to expose breaches
         of employee integrity and other attacks against tax
                                                               reporting period, TIGTA
         administration. A primary tool used in this effort is processed 2,165 complaints
         TIGTA’s Strategic Enforcement Division (SED). This    against IRS employees.
         unit consists of data analysts, computer specialists,
                                                   TIGTA’s strategies to promote
         and criminal investigators who monitor, probe, and
         investigate the evolving electronic environment.
                                                   employee integrity include
         SED responds to computer intrusion incidents,
                                                   both proactive and reactive
         investigates IRS network vulnerabilities, conducts
                                                   investigative programs
         system penetration tests, and provides forensic
                                                   designed to achieve high-
         processing of computers and other media in support
                                                   impact, results-oriented,
         of TIGTA investigations. SED also identifies
                                                   quality investigations. TIGTA
         employees who have made potential unauthorized
         accesses to electronic taxpayer information on IRS
                                                   administers a program of
         computer systems. Since October 1, 2003, there
                                                   Integrity/Fraud Awareness
         have been7 criminal prosecutions and 51 adverse
                                                   presentations to IRS
         administrative actions against IRS employees
                                                   employees and the public.
         involved in unauthorized access to tax information.
                                                   These presentations educate
    IRS employees and taxpayers on the ways they can help prevent waste, fraud,
    and abuse in IRS operations and programs.

    The following cases are examples of IRS Employee Integrity investigations TIGTA
    conducted during this reporting period.

    Former IRS Revenue Agent to Serve Prison Term for $500,000 Bribe

    On March 5, 2004, a former IRS Revenue Agent was sentenced in Texas for
    bribery. The former Revenue Agent solicited a $500,000 bribe from an individual
    in exchange for ensuring a civil audit being conducted on a corporation would


                                                                                     23
SEMIANNUAL REPORT TO CONGRESS                                       MARCH 31, 2004



    not reach the individual or be converted to a criminal investigation. The former
    IRS employee accepted an initial payment of $250,000 and arranged to receive
    an additional $100,000 before being arrested by TIGTA agents. The former
    Revenue Agent was sentenced to 3 years and 1 month in Federal prison,
    without parole, 3 years of supervised release, and was ordered to pay a
    $5,000 fine. This prison term represents the top of the applicable guideline range
    for this crime.

    Former IRS Contract Employee and Co-conspirator Indicted for Stealing over
    $2.6 Million from IRS Lockbox Facility

    On February 18, 2004, a former IRS contract employee and a co-conspirator
    were indicted in Texas for conspiracy, theft of Federal Government property,
    and embezzlement by a bank employee. The two individuals allegedly
    conspired to steal over $2.6 million in tax remittance checks and money orders
    made payable to the IRS and/or the Treasury Department that were mailed to
    the IRS Dallas Lockbox for processing. They allegedly altered the stolen checks
    to change the payee information from the IRS or the Treasury Department to
    names of individuals and entities whose identities had been stolen or were
    fictitious or fraudulent. The co-conspirators deposited the stolen checks in bank
    accounts under their control and withdrew the proceeds. They also allegedly
    made templates and counterfeited checks, which were deposited in the same
    fraudulent bank accounts or sold on the black market.

    IRS Employee Pleads Guilty to Improperly Accessing Accounts on IRS Computer

    On February 11, 2004, an IRS employee pleaded guilty in New York to improperly
    accessing an IRS computer and obtaining tax return information for three
    taxpayers without authorization. The Federal court has scheduled a sentencing
    hearing for May 4, 2004, regarding this matter.

    Former IRS Employee Sentenced in Theft of Taxpayer’s Remittances

    On February 24, 2004, a former IRS employee was sentenced in Maine for failing
    to deposit money. The former employee, a Revenue Officer responsible for
    collecting delinquent taxes from taxpayers, received $2,070 in cash remittance
    payments from a taxpayer. The former employee was required to convert the
    cash to money orders and forward it for payment to the IRS Deposit Unit within
    one working day. However, the money was deposited into a personal account
    and was not sent to the IRS Deposit Unit until several weeks later. The former
    employee was sentenced to 2 years probation and ordered to pay a
    $1,500 fine.




                                                                                     24
SEMIANNUAL REPORT TO CONGRESS                                       MARCH 31, 2004



    Former IRS Employee Sentenced for Possessing False Revenue Officer
    Credentials with Intent to Use Them Unlawfully

    On December 1, 2003, a former IRS employee was sentenced in California for
    possessing false identification documents. The former employee admitted to
    possessing 115 fraudulent IRS Revenue Officer credentials. The credentials were
    produced using three transparencies of an original IRS Revenue Officer
    credential bearing the former employee’s name, a credential number and issue
    date. The former employee possessed the identification documents with the
    intent to use or transfer them unlawfully. The former employee was sentenced
    to 2 years probation, including 6 months home detention with electronic
    monitoring, and ordered to pay a $10,000 fine.

    IRS Employee Sentenced for Distributing Controlled Substance

    On December 1, 2003, an IRS employee agreed to plead guilty in West
    Virginia for distributing a controlled substance. The IRS employee unlawfully
    distributed approximately 170 pills consisting of a mixture or substance
    containing Diazepam, a controlled substance. The employee was
    sentenced to 3 years probation.

    IRS Employee Arrested for Theft of Government Funds

    On November 24, 2003, an IRS employee was arrested in Maryland for theft of
    United States (U.S.) Government property. The employee allegedly incurred
    $6,000 worth of personal charges on an IRS-issued Citibank Purchase Card.
    Citibank Purchase Cards are issued to employees for authorized purchases of
    U.S. Government supplies and services. Once an official purchase is made using
    the Citibank Purchase Card, an approving official and not the cardholder must
    authorize it. The IRS employee attempted to conceal the theft by providing
    false signatures of IRS approving officials on Citibank purchase statements. The
    employee no longer works for the IRS.

    Former IRS Employee Sentenced for Impersonating IRS Agent

    On December 15, 2003, an individual was sentenced in Missouri for
    impersonating an IRS official. The individual, who no longer worked for the IRS as
    of 1999, improperly retained IRS credentials and falsely pretended to be an
    agent of the IRS and produced those credentials during an incident in 2003. The
    former IRS employee was sentenced to 6 months home confinement and
    6 years probation, and ordered to pay a $500 fine.




                                                                                25
SEMIANNUAL REPORT TO CONGRESS                                      MARCH 31, 2004



    IRS Contractor Arrested for Possessing Child Pornography on IRS Computer

    On October 30, 2003, an IRS contract employee was arrested in Maryland for
    possession of child pornography and transportation of obscene matters. The
    contract employee’s IRS-issued computer allegedly had several computer
    graphic files containing images of child pornography. The contract
    employee allegedly took and received obscene pictures from an interactive
    computer service. The alleged child pornography files were identified by
    TIGTA System Intrusion Network Attack Response Team agents from IRS
    computer firewall logs, and through forensic examination of the contract
    employee’s IRS-issued computer.

    IRS Employee Charged with Conspiracy to Commit Identity Theft, Witness
    Tampering and Unauthorized Inspection of Tax Return Information

    On January 8, 2004, an IRS employee was indicted in Maryland for conspiring to
    commit identity theft, witness tampering, and unauthorized inspection of tax
    return information. The employee is alleged to have fraudulently used a Social
    Security Number (SSN) issued to another person; and willfully inspected tax
    return information without authority. The employee was also charged with
    attempting to corruptly persuade another person with the intent to influence,
    delay, and prevent that person’s testimony in an official U.S. Court proceeding.

    IRS Employee Arrested for Receipt and Possession of Child Pornography on
    Government-Issued Computer

    On November 21, 2003, an IRS employee was arrested in Texas for receipt and
    possession of child pornography on a Government-issued computer. The
    employee allegedly received child pornography that had been transported in
    interstate and foreign commerce by computer. In a building used by and
    under the control of the Government, the employee allegedly possessed a
    computer hard drive containing images of child pornography, which consisted
    of visual depictions of minors engaged in sexually explicit conduct.

    IRS Employee Charged in Murder-for-Hire Plot

    On October 7, 2003, an IRS employee was indicted in West Virginia in a murder-
    for-hire plot. The IRS employee allegedly used the IRS electronic mail system
    with the intent to engage in the plot, which included a payment of $1,000.




                                                                                     26
SEMIANNUAL REPORT TO CONGRESS                                                  MARCH 31, 2004




                EXTERNAL ATTEMPTS TO CORRUPT
                     TAX ADMINISTRATION
    TIGTA remains dedicated to providing quality, high-impact criminal
    investigations that protect the IRS from external attempts to corrupt tax
    administration. External efforts to interfere with administration of Internal
    Revenue laws include: bribery, theft of IRS refunds, fraud by tax preparers, and
    impersonation of IRS officials.


                  TIGTA’s Technical Services and Forensic Science Laboratory

       TIGTA’s investigative efforts are greatly enhanced by its Technical and Forensic Support
       Division that includes a Technical Services Section and a Forensic Science Laboratory.
       Each of these programs provides technical expertise throughout the development and
       adjudication process of investigations. During the reporting period, the Forensic Science
       Laboratory conducted 115 forensic examinations while the Technical Services Section
       provided electronic or surveillance support in 142 investigative requests.



    The following cases are examples of investigations of External Attempts to
    Corrupt Tax Administration TIGTA conducted during this reporting period.

    Two Individuals Charged with Bribery

    On October 30, 2003, an individual was arrested in Arizona for attempting to
    bribe an IRS employee. The individual allegedly offered an IRS employee
    $20,000 to illegally eliminate approximately $300,000 in delinquent payroll tax
    liabilities owed to the IRS by the individual’s business. The individual made a
    $2,000 payment to the IRS employee in exchange for making the tax liability
    “disappear off the books.” The balance of the bribe was to be paid later. On
    November 25, 2003, a second individual, an employee of the individual’s
    business, was charged after making a second $2,000 payment toward the
    $20,000 bribe offer on the business owner’s behalf.

    Individual Convicted of Filing False Forms with IRS in Effort to Retaliate Against
    Local Government Officials

    On January 6, 2004, an individual was convicted in Wisconsin for obstructing
    and impeding the Internal Revenue laws. The individual filed false Reports of
    Cash Payments Over $10,000 Received in a Trade or Business (Forms 8300) with
    the IRS, claiming certain public employees conducted large reportable cash
    transactions on the individual’s behalf. The individual checked the box
    “suspicious transactions” on each Form 8300 and falsely claimed the public
    employees had conducted $1.8 billion, $200 million, and $100 million in cash
    transactions on the individual’s behalf. The false Forms 8300 were processed

                                                                                              27
SEMIANNUAL REPORT TO CONGRESS                                        MARCH 31, 2004



    by the IRS and penalty notices were sent to the public employees informing
    them they must supply additional information or face penalties. The individual
    also allegedly filed false Suspicious Activity Reports with the IRS. These reports
    claim 12 public employees engaged in criminal activity, including check
    fraud, counterfeit instruments, misuse of funds, embezzlement, and false
    statements.

    Tax Preparer Charged with False Statements; Embezzlement; and Obstructing
    Internal Revenue Laws

    On October 16, 2003, an individual was indicted in New Jersey for making false,
    fictitious, and fraudulent statements and representations to the IRS, and for
    obstructing and impeding the administration of the Internal Revenue laws. The
    individual, who was in the business of preparing tax returns and representing
    clients in their dealings with the IRS, signed and filed with the IRS more than
    50 Power of Attorney and Declaration of Representative forms (Form 2848)
    which falsely stated the individual was a Certified Public Accountant or an
    attorney. The tax preparer allegedly filed on behalf of clients approximately
    1,400 U.S. Individual Income Tax Returns (Form 1040) on which the individual
    misrepresented the individual’s own SSN. Allegedly, the individual e-filed
    approximately 200 U.S. Electronic Individual Income Tax Returns using an
    Electronic Filing Identification Number that had been obtained in the names of
    two other individuals. The tax preparer also allegedly embezzled approximately
    $392,000 in client’s funds.

    Co-conspirators Sentenced for Telemarketing Fraud

    In October 2003 and December 2003, two individuals were sentenced in Florida
    for telemarketing fraud targeted at the elderly. The co-conspirators fraudulently
    induced victims to wire transfer money to pay advance Federal taxes allegedly
    due on non-existent lottery winnings, and mailed IRS forms to the victims in
    support of the fraud. One individual was sentenced to 3 years and 10 months
    imprisonment, and the other individual was sentenced to 6 years imprisonment.
    Additionally, both were placed on 3 years supervised probation and ordered to
    pay over $400,000 restitution to victims.

    Individual Charged with Impersonating IRS Employee

    On November 5, 2003, an individual was indicted in Minnesota for bank fraud
    and impersonating an IRS employee. The individual allegedly contacted a
    victim by telephone and falsely stated the individual was an employee of the
    IRS and was engaged in clearing up an IRS matter that involved the victim. The
    IRS impersonator obtained personal identity information from the victim and
    used that information to withdraw $9,700 from the victim’s savings account.



                                                                                     28
SEMIANNUAL REPORT TO CONGRESS                                                            MARCH 31, 2004



    Individual Sentenced for Filing Fictitious Documents with IRS

    On December 16, 2003, an individual was sentenced in Minnesota for fraud,
    false statements, and issuing fictitious financial instruments with the intent to
    defraud. The individual presented fictitious financial instruments in the form of
    Sight Drafts18 purporting to be issued under the authority of the Department of
    the Treasury, to businesses, state and local agencies, and the IRS. After the
    recipients refused to accept the Sight Drafts as payment, the individual made
    an effort to harass, intimidate, and create legal problems for the businesses, the
    state and local agencies, and their employees. The individual was sentenced
    to 2 years and 7 months imprisonment and 3 years probation, and was ordered
    to pay $250,000 restitution to the victims.

    Tax Preparer Charged with Fraudulently Misrepresenting Taxpayers Before IRS

    On December 16, 2003, an individual was indicted in California for mail fraud and
    making false statements and representations to the IRS. Allegedly, to induce
    victims, the individual falsely pretended to be a licensed attorney who could
    prepare their tax returns and/or handle their tax collection cases. The individual
    allegedly signed and filed with the IRS several Power of Attorney and Declaration
    of Representative Forms (Form 2848) on behalf of victim taxpayers in which the
    individual falsely claimed to be an attorney licensed in the State of California.

    Individual Charged with Impersonating IRS Auditor

    On January 29, 2004, an individual was indicted in California for impersonating
    an IRS Auditor. The individual falsely pretended to be an IRS Auditor and
    advised taxpayers the individual could assist them with their IRS audits. The
    individual obtained over $83,000 from taxpayers allegedly as payments toward
    the taxpayer’s fictitious tax liability.

    Individual Sentenced for Impersonating IRS Official

    On November 14, 2003, an individual was sentenced in Washington for mail
    fraud and impersonating a Federal employee or agent. The individual mailed
    letters to business owners claiming to be a “tax examiner specialist” affiliated
    with the IRS, stating the targeted businesses had “red flags” on the IRS computer
    system which indicated the businesses had engaged in fraudulent tax reporting.
    The impersonator demanded the business owners send blank money orders in
    amounts that varied between $5,000 and $10,000. The individual threatened if
    the business owners did not comply with the demand, the IRS would audit them.
    The impersonator was sentenced to 2 years imprisonment with 2 years
    supervised probation upon release.

    18
        Sight drafts are fraudulent, check-like instruments used in a complex process called redemption to pay
    off debts or purchase items.


                                                                                                         29
SEMIANNUAL REPORT TO CONGRESS            MARCH 31, 2004




            THIS PAGE LEFT BLANK INTENTIONALLY




                                                     30
SEMIANNUAL REPORT TO CONGRESS                                         MARCH 31, 2004




                      CONGRESSIONAL
                        TESTIMONY
    On March 10, 2004, Acting IG Pamela J. Gardiner testified before a joint
    hearing of the Oversight and Social Security Subcommittees of the Committee
    on Ways and Means of the U.S. House of Representatives. The purpose of the
    hearing was to focus on the respective responsibilities of the Social Security
    Administration, the IRS, and the Department of Homeland Security in ensuring
    accurate earnings reporting and tax payments. It also addressed the issue of
    the degree to which policies and procedures are coordinated among
    agencies to prevent misuse of Social Security Numbers and Individual Taxpayer
    Identification Numbers (ITIN). The hearing was designed to educate policy
    makers about the ITIN and was entitled, “Social Security Number and Individual
    Taxpayer Identification Number Mismatches and Misuse.” TIGTA has been
    following the issue of the use and misuse of the ITIN since its first audit report on
    the subject in 1999. The dramatic upsurge in ITIN use was the focus of a TIGTA
    audit report issued in January 2004 and was used as the primary document for
    the testimony.




                                                                                   31
SEMIANNUAL REPORT TO CONGRESS            MARCH 31, 2004




            THIS PAGE LEFT BLANK INTENTIONALLY




                                                     32
SEMIANNUAL REPORT TO CONGRESS                                               MARCH 31, 2004




               AWARDS AND SPECIAL
                 ACHIEVEMENTS
                        IACP RECOGNIZES TIGTA

    O
          n October 22, 2003, the International Association of Chiefs of Police (IACP)
          presented TIGTA’s Office of Investigations, San Francisco Field Division, with
          the first annual IACP/ChoicePoint Award for Excellence in Criminal
    Investigations. The award recognizes quality achievements in managing and
    conducting criminal investigations and promotes the sharing of information on
    successful investigative programs and approaches.




                TIGTA INVESTIGATIONS EMPLOYEES RECEIVE IACP AWARD
         Left to Right: Tim Camus, Pat Guiton, David Buckley, Jeff Gordon, Steve Jones,
                               Alan Hatcher, and Michael Delgado

    The selection panel, comprised of Chiefs of Police, reviewed 230 applications from all
    over the nation. Nominations were evaluated on the significance of the contribution
    to the advancement of the art or science of criminal investigations, and innovation
    in the development or enhancement of investigative techniques.

    Competition for the award was of the highest caliber, with the District of Columbia
    sniper case investigation receiving top honors, and that of the Illinois Homicide
    Taskforce selected as the first runner-up. The second runner-up award was
    presented to TIGTA in honor of the investigation of James D. Bell, his
    Assassination Politics plot, and threats involving government employees. TIGTA
    was the only Federal agency to meet the requirements of the selection panel.




                                                                                          33
SEMIANNUAL REPORT TO CONGRESS                                      MARCH 31, 2004




      TIGTA - ONE OF THE BEST PLACES TO WORK
    TIGTA was recognized as one of the “Best Places to Work in the Federal
    Government,” according to the results of the 2002 Office of Personnel
    Management Federal Human Capital Survey. Some of the highlights of
    TIGTA’s results from the survey include:

              •   TIGTA ranked #22 overall out of 189 Federal subagencies
                  surveyed.
              •   TIGTA ranked in the top 10 of these Federal subagencies in
                  several categories:
                      • Pay and Benefits (#1)
                      • Work/Life Balance (#2)
                      • Strategic Management (#8)
                      • Family Culture and Benefits (#9)
                      • Teamwork (#10)
              •   In 10 categories, TIGTA ranked better than the Federal
                  Government (all other agencies surveyed).

    Please visit the website www.customersurvey.gov/ for more details.




                                                                               34
SEMIANNUAL REPORT TO CONGRESS                                                                 MARCH 31, 2004




                                   APPENDIX I – AUDIT STATISTICAL REPORTS


                                       AUDIT REPORTS WITH QUESTIONED COSTS

    One audit report with questioned costs was issued during this semiannual reporting period.1
    The term “questioned cost” means a cost that is questioned because of: (1) an alleged violation of a
    provision of a law, regulation, contract, or other requirement governing the expenditure of funds;
    (2) a finding, at the time of the audit, such cost is not supported by adequate documentation
    (“unsupported cost”); or (3) a finding that expenditure of funds for the intended purpose is unnecessary
    or unreasonable. The term “disallowed cost” means a questioned cost management, in a
    management decision, has sustained or agreed should not be charged to the government.

          REPORTS WITH QUESTIONED COSTS                                       QUESTIONED
                (10/1/03 – 3/31/04)                       NUMBER OF              COSTS2       UNSUPPORTED COSTS
                REPORT CATEGORY                            REPORTS          (IN THOUSANDS)      (IN THOUSANDS)

        1. For which no management decision
        had been made by the beginning of
        the reporting period                                            1                $1                   $0



        2. Which were issued during the
        reporting period                                                1              $121                   $0




        3. Subtotals (Item 1 plus Item 2)                               2              $122                   $0

        4. For which a management decision
        was made during the reporting period
            - Dollar value of disallowed costs                          1              $121                   $0
            - Dollar value of costs not disallowed                      1                $1                   $0


        5. For which no management decision
        had been made by the end of the
        reporting period (Item 3 minus Item 4)                          0                $0                   $0


        6. For which no management decision
        was made within 6 months of report
        issuance                                                        0                $0                   $0
    1
        See Appendix IV for identification of audit reports involved.
    2
        “Questioned Costs” include “Unsupported Costs.”

                                                  PRIOR PERIOD REPORTS

    During this reporting period, the IRS did not provide TIGTA with the value of questioned costs for
    any reports issued before October 1, 2003, for which the amount of questioned costs could not be
    determined at the time the reports were issued.




                                                                                                        35
SEMIANNUAL REPORT TO CONGRESS                                                           MARCH 31, 2004



                     REPORTS WITH RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE

    Two reports with recommendations that funds be put to better use were issued during this
    semiannual reporting period.1 The term “recommendation that funds be put to better use” means a
    recommendation that funds could be used more efficiently if management took actions to
    implement and complete the recommendation, including: (1) reductions in outlays;
    (2) deobligations of funds from programs or operations; (3) costs not incurred by implementing
    recommended improvements related to operations; (4) avoidance of unnecessary expenditures
    noted in pre-award reviews of contract agreements; (5) preventing erroneous payment of the
    following refundable credits: Earned Income Tax Credit and Child Tax Credit; or (6) any other savings
    which are specifically identified. The term “management decision” means the evaluation by
    management of the findings and recommendations included in an audit report and the issuance of
    a final decision concerning its response to such findings and recommendations, including actions
    concluded to be necessary.
    1
        See Appendix IV for identification of audit reports involved.




        REPORTS WITH RECOMMENDATIONS THAT FUNDS
                  BE PUT TO BETTER USE                                  NUMBER
                   (10/1/03 – 3/31/04)                                    OF              AMOUNT
                   REPORT CATEGORY                                      REPORTS       (IN THOUSANDS)

    1. For which no management decision has been
    made by the beginning of the reporting period                                 2              $44,340



    2. Which were issued during the reporting period                              2             $732,180


    3. Subtotals (Item 1 plus Item 2)                                             4             $776,520

    4. For which a management decision was made
    during the reporting period

    Dollar value of recommendations that were
    agreed to by management
    - Based on proposed management action                                         0                   $0
    - Based on proposed legislative action                                        1             $711,280
    Dollar value of recommendations that were not
    agreed to by management                                                       1              $20,900

    5. For which no management decision has been
    made by the end of the reporting period
    (Item 3 minus Item 4)                                                         2              $44,340


    6. For which no management decision was made
    within 6 months of issuance                                                   2              $44,340




                                                                                                            36
SEMIANNUAL REPORT TO CONGRESS                                                          MARCH 31, 2004



                 REPORTS WITH ADDITIONAL QUANTIFIABLE IMPACT ON TAX ADMINISTRATION

    In addition to questioned costs and funds put to better use, the Office of Audit has identified additional
    measures that demonstrate the value of audit recommendations on tax administration and business
    operations. These issues are of interest to the IRS and Treasury executives, the Congress, and the
    taxpaying public, and are expressed in quantifiable terms to provide further insights to the value and
    potential impact of the Office of Audit’s products and services. Including this information also
    advances adherence to the intent and spirit of the Government Performance and Results Act (GPRA).

    Definitions of these additional measures are:

    Taxpayer Rights and Entitlements at Risk: The protection of due process (rights) that is granted to
    taxpayers by law, regulation, or IRS policies and procedures. These rights most commonly arise in the
    performance of filing tax returns, paying delinquent taxes, and examining the accuracy of tax liabilities.
    The acceptance of claims for and issuance of refunds (entitlements) are also included in this category,
    relating to instances when taxpayers have a legitimate assertion to overpayments of tax.

    Reduction of Burden on Taxpayers: Decreases by individuals or businesses in the need for, frequency
    of, or time spent on contacts, record keeping, preparation, or costs to comply with tax laws,
    regulations, and IRS policies and procedures.

    Increased Revenue: Assessment or collection of additional taxes.

    Revenue Protection: Proper denial of claims for refund, including recommendations that prevent
    erroneous refunds or efforts to defraud the tax system.

    Taxpayer Privacy and Security: Protection of taxpayer financial and account information (privacy).
    Processes and programs that provide protection of tax administration, account information, and
    organizational assets (security).

    Inefficient Use of Resources: Value of efficiencies gained from recommendations to reduce cost while
    maintaining or improving the effectiveness of specific programs; resources saved would be available
    for other IRS programs. Also, the value of internal control weaknesses that resulted in an unrecoverable
    expenditure of funds with no tangible or useful benefit in return.

    Protection of Resources: Safeguarding human and capital assets, used by or in the custody of the
    organization, from inadvertent or malicious injury, theft, destruction, loss, misuse, overpayment,
    or degradation.

    Reliability of Management Information: Ensuring the accuracy, validity, relevance, and integrity of
    data, including the sources of data and the applications and processing thereof, used by the
    organization to plan, monitor, and report on its financial and operational activities. This measure will
    often be expressed as an absolute value (i.e., without regard to whether a number is positive or
    negative) of overstatements or understatements of amounts recorded on the organization’s
    documents or systems.

    The number of taxpayer accounts and dollar values shown in the following chart were derived from
    analyses of historical data, and are thus considered potential barometers of the impact of audit
    recommendations. Actual results will vary depending on the timing and extent of management’s
    implementation of the corresponding corrective actions, and the number of accounts or subsequent
    business activities impacted from the dates of implementation. Also, a report may have issues that
    impact more than one outcome measure category.




                                                                                                       37
SEMIANNUAL REPORT TO CONGRESS                                                                    MARCH 31, 2004



               REPORTS WITH ADDITIONAL QUANTIFIABLE IMPACT ON TAX ADMINISTRATION (CONTINUED)

       REPORTS WITH ADDITIONAL
      QUANTIFIABLE IMPACT ON TAX
            ADMINISTRATION               NUMBER OF        NUMBER OF         NUMBER
          (10/1/03 – 3/31/04)            REPORTS IN       TAXPAYER             OF        DOLLAR VALUE
      OUTCOME MEASURE CATEGORY           CATEGORY1        ACCOUNTS           HOURS       (IN THOUSANDS)        OTHER8

      Taxpayer Rights and
      Entitlements at Risk                           6          362,814                        $2,264,8913             9



      Reduction of Burden on
      Taxpayers                                      5     46,965,042 2                                               10




      Increased Revenue                              3                26                        $29,546 2, 4


      Revenue Protection                             3          596,755                      $3,422,229 2, 5


      Taxpayer Privacy and Security                  2            8,191

                                                                                                           6
      Inefficient Use of Resources                   9                                          $648,730


      Protection of Resources                        0

      Reliability of Management
      Information                                    5           20,237                       $6,110,315 7

  1
    See Appendix IV for identification of audit reports involved.
  2
    In one report (Reference No. 2004-30-023) IRS management did not agree the cost of implementing a new policy would
  outweigh the potential benefits to tax administration, involving reduction of burden for 265,000 taxpayers, revenue
  protection of $2.35 billion and increased revenue of $27.5 million.
  3
    In one report (Reference No 2004-30-040) IRS management did not agree penalties and interest could be reduced by
  $2.1 billion over 5 years, stating that measure was not based on empirical data. In a second report (Reference No.
  2004-30-085), IRS management did not agree the TIGTA's statistical method produced a valid estimate for the
  $33 million of taxes overpaid.
  4
    In one report (Reference No. 2004-30-043) IRS management disagreed with the $1.87 million in increased revenue
  because all the balance due amounts may not be collected.
  5
    In one report (Reference No. 2004-40-013) IRS management agrees the $7 million of revenue protection represents a
  reasonable estimate; however, they do not agree it is feasible to perform periodic criminal background checks for all
  individuals authorized to participate in the e-file Program.
  6
    In 5 reports, (Reference Nos. 2004-20-041, 2004-30-038, 2004-40-042, 2004-30-040, 2004-30-039) IRS management did not
  agree with the $110.6 million in inefficient use of resources.
  7
    In one report (Reference No. 2004-10-060) IRS management did not agree the $6 billion overstatement in the
  management information system has a measurable impact on tax administration because the IRS does not report
  information from these data fields. In a second report (Reference No. 2004-40-057), IRS management does not agree the
  12 potential disclosure errors should be included in the IRS' reported customer accuracy rate.
  8
     Some reports contained “Other” quantifiable impacts besides the number of taxpayer accounts, number of hours, and
  dollar value. These outcome measures are described in the footnotes below.
  9
     Other measures of taxpayer rights and entitlements consist of 1,477 FOIA, PA and I.R. C. §6103 requests that were
  improperly withheld (Reference No 2004-40-064).
  10
      Other measure of taxpayer burden consists of 33 test calls with errors (Reference No. 2004-40-029) and
  103 incorrect responses to auditors' questions (Reference No. 2004-40-065).




                                                                                                                        38
SEMIANNUAL REPORT TO CONGRESS                                                             MARCH 31, 2004



                            APPENDIX II – INVESTIGATIONS - STATISTICAL REPORTS



                                           INVESTIGATIONS OPENED AND CLOSED

         Total Investigations Opened                                                                1,877


         Total Investigations Closed                                                                1,989




                                               FINANCIAL ACCOMPLISHMENTS

        Embezzlement/Theft Funds Recovered                                                    $635,906


        Court Ordered Fines, Penalties and Restitution                                      $14,436,061


        Out-of-Court Settlements                                                                   $1,000




                                      STATUS OF CLOSED CRIMINAL INVESTIGATIONS

             CRIMINAL REFERRALS1                    EMPLOYEE              NON-EMPLOYEE     TOTAL
        Referred – Accepted for
        Prosecution                                               32                136              168

        Referred – Declined for
        Prosecution                                              329                349              678

        Referred - Pending
        Prosecution Decision                                      28                 89              117


            TOTAL CRIMINAL REFERRALS                             389                574              963


        No Referrals                                             457                575             1,032
    1
        Criminal referrals include both Federal and state dispositions.




                                                                                                        39
SEMIANNUAL REPORT TO CONGRESS                                                                       MARCH 31, 2004




                                                 CRIMINAL DISPOSITIONS1

                                                       EMPLOYEE             NON-EMPLOYEE                  TOTAL

        Guilty                                                       21                       92                       113

        Nolo-Contendere                                               0                         0                       0

        Pre-trial Diversion                                           4                         4                       8

        Deferred Prosecution2                                         0                         3                       3

        Not Guilty                                                    0                         1                       1
                    3
        Dismissed                                                     1                       29                       30

                 TOTAL CRIMINAL DISPOSITIONS                         26                      129                       155
    1
      Final criminal dispositions during the reporting period. This data may pertain to investigations referred criminally
    in prior reporting periods and do not necessarily relate to the investigations referred criminally in the Status of
    Closed Criminal Investigations table.
    2
      Generally in a deferred prosecution, the defendant accepts responsibility for his/her actions, and complies with
    certain conditions imposed by the court. Upon defendant’s completion of the conditions, the court dismisses
    the case. If the defendant fails to fully comply, the court reinstates prosecution of the charge.
    3
      Court dismissed charges.




                         ADMINISTRATIVE DISPOSITION ON CLOSED TIGTA INVESTIGATIONS1

        Removed, Terminated or Other                                                                                135

        Suspended/Reduction in Grade                                                                                   61

        Oral or Written Reprimand/Admonishment                                                                         93

        Closed – No Action Taken                                                                                    195

        Clearance Letter Issued                                                                                        94

        Employee Resigned Prior to Adjudication                                                                        46

                                                      TOTAL ADMINISTRATIVE DISPOSITIONS                             624

    1
     Final administrative dispositions during the reporting period. This data may pertain to investigations referred
    administratively in prior reporting periods and does not necessarily relate to the investigations closed in the
    Investigations Opened and Closed table.




                                                                                                                             40
SEMIANNUAL REPORT TO CONGRESS                                                                     MARCH 31, 2004




       The following tables summarize the number of complaints received by TIGTA and the status
       of the complaints.




                                      COMPLAINTS/ALLEGATIONS RECEIVED BY TIGTA

       Complaints Against IRS Employees                                                                          2,165


       Complaints Against Non-Employees                                                                          1,380


                TOTAL NUMBER OF COMPLAINTS/ALLEGATIONS                                                           3,545




                                STATUS OF COMPLAINTS/ALLEGATIONS RECEIVED BY TIGTA

       Investigations Initiated                                                                                  1,265


       In Process Within TIGTA1                                                                                    261


       Referred to the IRS for Action                                                                              388


       Referred to the IRS for Information Only                                                                    840


       Referred to a Non-IRS Entity2                                                                                   15


       Closed With No Referral                                                                                     593


       Closed With All Actions Completed                                                                           183


                                                TOTAL COMPLAINTS                                                 3,545
   1
       Complaints for which final determination had not been made at the end of the reporting period.
   2
       A non-IRS entity includes other law enforcement entities or Federal agencies.

       Note: The IRS made 63 referrals to TIGTA that TIGTA determined would more appropriately be handled by the IRS
       and, therefore, were returned to the IRS. These are not included in the total complaints shown above.




                                                                                                                  41
SEMIANNUAL REPORT TO CONGRESS                                                                       MARCH 31, 2004



                     IRS DATA REGARDING ALLEGATIONS OF MISCONDUCT AGAINST IRS EMPLOYEES

 The following tables contain information exactly as provided by the IRS to TIGTA and consist of IRS employee
 misconduct reports from the IRS Automated Labor and Employee Relations Tracking System (ALERTS). Also, data
 concerning substantiated §1203 allegations are included. IRS management conducted the inquiries into the cases
 reflected in these tables.

                           REPORT OF EMPLOYEE MISCONDUCT FOR THE PERIOD 10/01/03 – 3/31/04
                                          SUMMARY BY DISPOSITION GROUPS
                                                 TIGTA    ADMINISTRA- EMPLOYEE BACKGROUND
                                                INVESTI-      TIVE      TAX MATTER       INVESTI-
                      DISPOSITION               GATIONS     CASES1        CASES2        GATIONS
                                                                                                 3
                                                                                                                        TOTAL
     Removal                                                   53               81               22               4             160
     Separation of Probationary Employees                       4              199               15              58             276
     Separation of Temporary Employees                          0                2                  4             5             11
     Resignation/Retirement                                    68               92               70              25             255
     Suspensions                                               75              208               79               5             367
     Reprimands                                                89              286              530              20             925
     Counseling                                                46              293              995              95           1,429
     Alternative Discipline                                    23               72               36               4             135
     Clearance                                                105              110                  9             0             224
     Closed Without Action                                    321              276              338             148           1,083
     Forwarded to TIGTA                                         0                5                  0             0              5
                                             TOTAL            784            1,624            2,098             364           4,870
 1
  Administrative - Any matter involving an employee in which management conducted an inquiry into alleged misconduct.
 2
  Employee Tax Matter - Any conduct matter that becomes a matter of official interest involving an employee's tax compliance.
 3
  This category represents any matter involving a National Background Investigation Center (NBIC) investigation into an IRS
 employee’s background that is referred to IRS management for appropriate action.

                              REPORT OF EMPLOYEE MISCONDUCT FOR THE PERIOD 10/1/03 – 3/31/04
                                                   NATIONAL SUMMARY
                                                                         CASES CLOSED
                                     OPENING CONDUCT CASES CONDUCT                     NON-CONDUCT CLOSING
               CASE TYPE            INVENTORY    RECEIVED       ISSUES   DUPLICATES        CASES   INVENTORY
     TIGTA Investigations – ROI (I)1        671                 765          (784)           (13)                (0)            639

     Administrative Case (A)2               717               1,672        (1,624)           (18)                (7)            740
     Employee Tax Compliance
     Case (C)3                            1,488               2,251        (2,098)          (136)                (0)          1,505
     Background Investigations
     (E)4                                   269                 207          (364)            (4)                (0)            108
                              TOTAL       3,145               4,895        (4,870)          (171)                (7)          2,992
 1
   TIGTA Investigations (ROI) – Any matter involving an employee in which TIGTA conducted an investigation into alleged misconduct
 and referred a Report of Investigation (ROI) to the IRS for appropriate action.
 2
   Administrative Case – Any matter involving an employee in which management conducted an inquiry into alleged misconduct.
 3
   Employee Tax Compliance Case – Any conduct matter that is identified by the Employee Tax Compliance Program and that
 becomes a matter of official interest.
 4
   This category represents any matter involving an NBIC investigation into an IRS employee’s background that is referred to IRS
 management for appropriate action.




                                                                                                                         42
SEMIANNUAL REPORT TO CONGRESS                                                                         MARCH 31, 2004




                       IRS SUMMARY OF SUBSTANTIATED § 1203 INQUIRIES RECORDED IN ALERTS
                                        FOR THE PERIOD 10/1/03 – 3/31/04


                                                                       REMOVED                             IN
      § 1203                          RESIGNED/       PROBATION/       ON OTHER        PENALTY         PERSONNEL
    VIOLATION         REMOVALS         RETIRED        SEPARATION       GROUNDS         MITIGATED        PROCESS         TOTAL


Seizure Without
Approval                         0                0                0             0                0                0         0


False Statement
Under Oath                       0                0                0             0                0                0         0

Constitutional &
Civil Rights
Issues                           0                0                0             0                0                0         0

Falsifying or
Destroying
Records                          1                0                0             0                1                2         4


Assault or
Battery                          0                0                0             0                0                0         0


Retaliate or
Harass                           0                0                0             0                0                1         1



Misuse of § 6103                 0                0                0             0                0                0         0

Failure to File
Federal Tax
Return                         16                 7                3             3               19               75        123

Understatement
of Federal Tax
Liability                      11                 5                0             1                7               55        79

Threat to Audit
for Personal
Gain                             0                0                0             0                0                0         0



             TOTAL             28               12                 3             4               27              133        207
Note: The cases reported as “Removals” and “Penalty Mitigated” do not reflect the results of any third-party appeal.




                                                                                                                       43
SEMIANNUAL REPORT TO CONGRESS            MARCH 31, 2004




         THIS PAGE LEFT BLANK INTENTIONALLY




                                                     44
SEMIANNUAL REPORT TO CONGRESS                                                                MARCH 31, 2004



                                 APPENDIX III – STATISTICAL REPORTS – OTHER
                  AUDIT REPORTS WITH SIGNIFICANT UNIMPLEMENTED CORRECTIVE ACTIONS

  The Inspector General Act of 1978 requires identification of significant recommendations described in
  previous semiannual reports in which corrective actions have not been completed. The following list is
  based on information from the IRS Office of Management Control’s automated tracking system
  maintained by Treasury management officials.

                                      PROJECTED                REPORT TITLE AND RECOMMENDATION SUMMARY
   REFERENCE                          COMPLETION           (F = FINDING NUMBER, R = RECOMMENDATION NUMBER,
    NUMBER           ISSUED             DATE                                P = PLAN NUMBER)
    093602          April 1999                     The Internal Revenue Service Needs To Improve Treatment of
                                                   Taxpayers During Office Audits

                                       10/01/05    F-1, R-4, P-2. Ensure all MACS data discs forwarded from the
                                                   MACS Development Center to district offices are properly
                                                   accounted for and secured.
   2000-30-059     March 2000                      The Internal Revenue Service Can Improve the Estate Tax
                                                   Collection Process

                                       01/15/05    F-2, R-2, P-1. Develop procedures to periodically reconcile tax
                                                   liens on the ALS with information shown on the taxpayer
                                                   accounts.
                                       01/15/05    F-2, R-3, P-1. Clarify procedures to employees all estate tax liens
                                                   should be recorded on the ALS.
   2000-20-094      June 2000                      A Comprehensive Program for Preventing and Detecting
                                                   Computer Viruses Is Needed

                                       07/01/04    F-2, R-1, P-1. Develop and implement IRS-wide procedures
                                                   detailing the frequency and steps to be followed for reliably
                                                   updating anti-virus software on both networked and portable
                                                   notebook computers.
                                       07/01/04    F-2, R-2, P-1. Establish controls for ensuring all updates have
                                                   been successfully accomplished.
                                       07/01/04    F-3, R-1, P-1. Develop a system for gathering information to help
                                                   analyze and monitor the effectiveness of the program’s virus
                                                   detection and prevention activities.
   2000-30-130     September                       Opportunities Exist to Enhance the International Field Assistance
                      2000                         Specialization Program

                                       04/15/04    F-2, R-1, P-1. Improve the management information system by
                                                   linking the International Field Assistance Specialization Program
                                                   indicator to specific issues listed in the International Case
                                                   Management System.
   `2000-30-154    September                       Significant Improvements Are Needed in Processing Gift Tax
                      2000                         Payments and Associated Extensions to File

                                       07/15/04    F-1, R-1, P-1. Require all balance due notices generated for gift
                                                   tax accounts be reviewed. Tax examiners should be instructed
                                                   to review the taxpayers’ corresponding individual income tax
                                                   and gift tax accounts to determine if the taxpayers’ gift tax
                                                   payments and extensions were correctly processed.
   2000-30-162     September                       The Internal Revenue Service Needs to Better Address
                      2000                         Bankruptcy Automatic Stay Violations

                                       11/15/06    F-1, R-2, P-1. Provide additional computer programming
                                                   enhancements to improve the value of litigation transcripts.




                                                                                                               45
SEMIANNUAL REPORT TO CONGRESS                                                               MARCH 31, 2004



                                 PROJECTED               REPORT TITLE AND RECOMMENDATION SUMMARY
   REFERENCE                     COMPLETION          (F = FINDING NUMBER, R = RECOMMENDATION NUMBER,
     NUMBER         ISSUED         DATE                               P = PLAN NUMBER)
   2001-10-027   January 2001                 Improved Case Monitoring and Taxpayer Awareness Activities Can
                                              Enhance the Effectiveness of the Tax Practitioner Disciplinary
                                              Proceedings Program

                                  12/15/04    F-1, R-1, P-1. Upgrade the automated case management system to
                                              provide more timely and accurate data on case activities and the
                                              use of program resources.
   2001-20-043   February 2001                Electronic Signature Initiatives Could Be Better Defined and
                                              Evaluated

                                  11/01/04    F-1, R-1, P-1. Finalize IRS requirements for the use of PINs as alternative
                                              signatures for electronically filed returns based on evolving guidance
                                              and the draft IRS authentication security policy and implementation
                                              guide.
                                  01/01/05    F-1, R-2, P-1. Ensure all operational alternative signature initiatives
                                              comply with the requirements.

   2001-30-052    March 2001                  Program Improvements Are Needed to Encourage Taxpayer
                                              Compliance in Reporting Foreign Sourced Income

                                  01/01/05    F-1, R-1, P-1. Ensure the prior recommendations are implemented.
                                              Establishing a formal program with goals, objectives, processes, and
                                              measures could help ensure sufficient management attention is
                                              devoted to improving the use of the Routine Exchange of
                                              Information Program for compliance.
                                  01/01/05    F-2, R-1, P-1. Identify the highest risk foreign sourced income
                                              documents and use them to coordinate with tax treaty partners to
                                              positively identify the U.S. taxpayers involved.
                                  P-1, P-2:   F-3, R-1, P-1, P-2. Improve systems that process data the IRS receives
                                  01/01/07    on foreign sourced income.
   2001-30-099    June 2001                   Management Advisory Report: The Internal Revenue Service Could
                                              Reduce the Number of Business Tax Returns Destroyed Because of
                                              Missing Information

                                  P-2, P-3:   F-1, R-1, P-2, P-3. Make necessary modifications to tax forms and
                                  04/15/04    instructions to ensure taxpayers understand their names, addresses,
                                              and TINs are required on both their tax forms and payment
                                              vouchers.

   2001-20-146   August 2001                  The Internal Revenue Service Is Making Progress, But Is Not Yet in Full
                                              Compliance With the Requirements of the Clinger-Cohen Act

                                  09/15/04    F-1, R-1, P-1. Prepare an overall strategy, plan and schedule to bring
                                              the IRS in full compliance with the Clinger-Cohen Act.
   2002-30-042    December                    The Internal Revenue Service Has Made Some Progress, but
                    2001                      Significant Improvements Are Still Needed to Reduce Errors in
                                              Manual Interest Calculations

                                  01/15/05    F-1, R-2, P-1. Establish a national quality review process that includes
                                              all restricted interest cases.




                                                                                                                       46
SEMIANNUAL REPORT TO CONGRESS                                                             MARCH 31, 2004



                                 PROJECTED                 REPORT TITLE AND RECOMMENDATION SUMMARY
   REFERENCE                     COMPLETION            (F = FINDING NUMBER, R = RECOMMENDATION NUMBER,
     NUMBER         ISSUED         DATE                                  P = PLAN NUMBER)
   2002-30-050   February 2002                Significant Efforts Have Been Made to Combat Abusive Trusts, but
                                              Additional Improvements Are Needed to Ensure Fairness and
                                              Compliance Objectives Are Achieved

                                  05/15/04    F-2, R-1, P-1. Ensure the Abusive Trust Program consistently applies
                                              the accuracy-related penalty in accordance with IRS policy, in
                                              order to help ensure fair and equitable taxpayer treatment.
                                  07/15/04    F-2, R-2, P-1. Provide examiners with formal guidance on the
                                              appropriate application of the accuracy-related penalty, in order to
                                              help ensure its consistent application.
   2002-30-125     July 2002                  The Internal Revenue Service Does Not Always Address
                                              Subchapter S Corporation Officer Compensation During
                                              Examinations

                                  05/15/04    F-3, R-1, P-1. Submit a RIS to existing (and/or future) information
                                              systems (such as Examination Operational Database) to identify
                                              officer compensation-related adjustment assessments made to
                                              S Corporation employment tax accounts.
   2002-30-156    September                   The Internal Revenue Service Does Not Penalize Employers that
                     2002                     File Wage and Tax Statements with Inaccurate Social Security
                                              Numbers

                                  07/01/04    F-1, R-1, P-1. Ensure the IRS initiates, as proposed in its response to
                                              our memorandum dated February 1, 2002, a regularly scheduled
                                              program for proposing penalties for Wage and Tax Statements
                                              (Forms W-2) with inaccurate name/SSN combinations.
   2002-30-186    September                   The Internal Revenue Service Needs to Simplify Filing
                     2002                     Requirements and Clarify Processing Procedures for Small
                                              Business Corporate Returns

                                  02/15/05    F-1, R-1, P-1. Simplify the process of filing election forms and U.S.
                                              Income Tax Returns for an S Corporation (Form 1120S) for new
                                              filers by determining if there are alternatives to make it easier for
                                              first-time filers to be granted elections and file their Forms 1120S,
                                              and by considering implementing alternatives and seeking
                                              modification of the legal requirements, as necessary.
                                  05/15/04    F-1, R-2, P-1. Develop procedures that would improve and
                                              simplify the process for approving, recording, and controlling
                                              elections and the related notification process to make it easier
                                              for taxpayers to file their Forms 1120S.
                                  05/15/04    F-2, R-1, P-1. Establish procedures for ensuring IRS records
                                              accurately reflect the filing of Forms 1120S once the IRS
                                              subsequently verifies an election was granted. Specific
                                              procedures should be developed for converting the Forms 1120
                                              back to the originally intended Forms 1120S.
                                  01/15/05    F-2, R-2, P-1. Clarify IRM procedures and assign responsibility for
                                              determining and assessing the correct taxes and issuing statutory
                                              notices of deficiency for small business corporate returns that
                                              could not be processed because the IRS could not verify valid
                                              elections were filed.




                                                                                                              47
SEMIANNUAL REPORT TO CONGRESS                                                       MARCH 31, 2004



                             PROJECTED               REPORT TITLE AND RECOMMENDATION SUMMARY
   REFERENCE                 COMPLETION          (F = FINDING NUMBER, R = RECOMMENDATION NUMBER,
     NUMBER        ISSUED      DATE                               P = PLAN NUMBER)
   2002-10-187   September                The New Suspension of Interest Provision Is Not Always
                    2002                  Calculated Correctly

                              01/15/05    F-2, R-1, P-1. Identify all taxpayers with under assessed interest
                                          caused by the original Master File computer programming,
                                          regardless of whether or not the interest had been reestablished
                                          on the accounts, and zero out any under assessed amounts to
                                          prevent burden on future disaster relief taxpayers or other
                                          taxpayers in special military conditions.
                              01/15/05    F-2, R-2, P-1. Identify disaster relief taxpayers and refund the
                                          amounts that were automatically collected on the under
                                          assessed interest.
   2003-40-023   November                 Trends in Customer Service in the Taxpayer Assistance Centers
                   2002                   Show Procedural and Training Causes for Inaccurate Answers to
                                          Tax Law Questions

                              10/01/05    F-5, R-2, P-1. Explore other options such as the planned remote
                                          monitoring by TAC managers, for conducting quality reviews of
                                          TAC employees on a regular basis.
   2003-20-035   December                 Additional Cost Savings and Increased Productivity in the Print
                   2002                   Operation and Computer Support Function Can Be Achieved at
                                          the Campus Locations

                              06/15/05    F-1, R-1, P-1. Increased coordination should be required with
                                          users to discontinue printing reports that are currently available in
                                          both printed and electronic format and convert additional
                                          reports to the EONS.
                              03/15/05    F-1, R-2, P-1. Establish a process for migrating identified efficient
                                          report distribution processes to all campuses.
                              07/01/04    F-1, R-4, P-1. Defer any upgrades of the new printers until the
                                          print requirements are re-evaluated based on additional reports
                                          being available or on the EONS and the transfer of notice
                                          printing to the consolidated print sites.
                              01/15/05    F-2, R-2, P-1. Ensure performance management reports are
                                          created for the print operation and computer support function
                                          based on the performance measures established in
                                          Recommendation 3.
                              06/15/05    F-2, R-3, P-1. Ensure managers compare results against
                                          performance measure goals and take actions to improve
                                          operational efficiency.
   2003-40-022   December                 Improvements Are Needed to Prevent the Potential Disclosure of
                   2002                   Confidential Taxpayer Information

                              05/15/04    F-1, R-2, P-3. Evaluate the safeguard procedures to ensure the
                                          procedures address the content as well as the security of
                                          information shared under I.R.C. § 6103.




                                                                                                             48
SEMIANNUAL REPORT TO CONGRESS                                                         MARCH 31, 2004



                                 PROJECTED                REPORT TITLE AND RECOMMENDATION SUMMARY
   REFERENCE                     COMPLETION           (F = FINDING NUMBER, R = RECOMMENDATION NUMBER,
     NUMBER         ISSUED         DATE                                P = PLAN NUMBER)
   2003-20-049   February 2003                Employee Background Investigations Were Normally
                                              Completed; However, the Contractor Employee Background
                                              Investigation Program Needs Improvement

                                  05/15/04    F-2, R-3, P-1. Ensure all contractor employees have properly paid
                                              their tax obligations.
                                  05/15/04    F-2, R-4, P-2. Ensure background investigations are completed
                                              for active contractor employees that obtained identification
                                              badges without a background investigation.
                                  07/15/04    F-2, R-5, P-2. Ensure personnel in the Real Estate and Facilities
                                              area of the Agency-Wide Shared Services are adequately
                                              trained regarding the requirements for issuing a contractor
                                              employee an IRS identification badge.
                                  10/15/05    F-3, R-1, P-1. Ensure a consolidated or integrated system is
                                              implemented to effectively manage all background
                                              investigations and identification badges, incorporating the
                                              needs of all stakeholders and eliminating the use of stand-alone
                                              systems such as the Security Entry Tracking System and the
                                              Procurement Background Investigation Program.
                                  10/15/05    F-3, R-2, P-1. Ensure until a single system is implemented, all
                                              COTRs are required to use the Procurement Background
                                              Investigation Program regardless of their organizational
                                              placement, and complete periodic reconciliations between the
                                              contractor employee background investigation information and
                                              the identification badge information at each IRS facility are
                                              conducted to detect the issuance of contractor employee
                                              identification badges without completion of required
                                              background investigations.
   2003-10-054    March 2003                  The Internal Revenue Service Needs to Establish an Effective
                                              Process to Accurately Identify, Record, and Report
                                              Unemployment Trust Fund Administrative Expenses

                                  04/01/04    F-1, R-1, P-1. Develop written procedures documenting a
                                              methodology, including the identification of all systems and
                                              sources of information, that would ensure the most reasonable
                                              and timely means of identifying and reporting all expenses
                                              associated with the IRS’ administration of all trust fund taxes.
                                  04/01/04    F-1, R-2, P-1. Establish controls to ensure any amounts reported
                                              to the Bureau of the Public Debt are reviewed and approved by
                                              a senior level IRS executive.
                                  03/31/05    F-1, R-3, P-1. Ensure the ability to record and report trust fund
                                              administrative expenses, as currently envisioned in the
                                              Integrated Financial System development plans is properly
                                              implemented.




                                                                                                       49
SEMIANNUAL REPORT TO CONGRESS                                                         MARCH 31, 2004



                              PROJECTED                REPORT TITLE AND RECOMMENDATION SUMMARY
   REFERENCE                  COMPLETION           (F = FINDING NUMBER, R = RECOMMENDATION NUMBER,
     NUMBER        ISSUED       DATE                                P = PLAN NUMBER)
   2003-10-094   March 2003                Improvements Are Needed in the Monitoring of Criminal
                                           Investigation Controls Placed on Taxpayers’ Accounts When
                                           Refund Fraud is Suspected

                               10/15/04    F-1, R-1, P-1. Consider providing future report listings to the FDC in
                                           an electronic media format and consider changing the
                                           frequency of the report from quarterly to twice a year, during
                                           non-peak processing periods, to allow the FDC to focus their
                                           resources on taking necessary actions to resolve accounts.
                               10/15/04    F-1, R-2, P-1. Ensure regular reviews of the Questionable Refund
                                           Program are conducted to assess compliance with procedures
                                           and feedback is provided regarding program effectiveness.
                                           Also, analyses of the FDCs control listing data should be
                                           analyzed to ensure reviews are done and accounts are
                                           resolved.
   2003-20-082   March 2003                Penetration Test of Internal Revenue Service Computer Systems

                               08/15/04    F-5, R-1, P-1. Apply proper security patches and/or registry
                                           settings.
                               07/01/04    F-6, R-1, P-1. Allow only network services that are specifically
                                           required and explicitly disable all other services.
   2003-40-139   June 2003                 Opportunities Exist to Improve the Administration of the Earned
                                           Income Tax Credit

                               08/15/04    F-1, R-1, P-1. Establish long-term goals and related measures for
                                           the EITC Program that reflect the program’s anticipated
                                           outcomes over time.
                               08/15/04    F-1, R-2, P-1. Establish a consistent method to measure progress
                                           toward the EITC Program’s long-term goals.
   2003-20-118    July 2003                Security Over Computers Used in Telecommuting Needs to Be
                                           Strengthened

                               06/30/04    F-1, R-1, P-1. Remind telecommuting employees periodically to
                                           store and encrypt sensitive information on secure locations of
                                           their laptop computers.
                               07/15/04    F-1, R-2, P-1. Remind system administrators to reset security
                                           settings after servicing laptop computers.
                               07/15/04    F-1, R-3, P-1. Develop guidance to assist functional managers in
                                           determining whether sensitive data are being stored in
                                           unencrypted areas on their employees’ laptop computers.
                               07/15/04    F-1, R-5, P-1. Consider purchasing commercial software to
                                           provide FIPS-compliant encryption scheme software for laptops
                                           used in telecommuting.
   2003-20-118    July 2003                Security Over Computers Used in Telecommuting Needs to Be
                                           Strengthened (continued)

                               06/30/04    F-1, R-6, P-1. Require front-line managers to periodically check
                                           their employees’ laptop computers to ensure sensitive data are
                                           being stored and encrypted properly.
                               07/15/04    F-2, R-1, P-1. Standardize VPN firewall configurations and hold
                                           the CSIRC responsible for maintaining those configurations and
                                           installing patches timely.
                               12/15/06    F-2, R-2, P-1, P-2, P-3. Consider installing personal firewall and IDS
                                           software on SDI laptop computers and require CSIRC to centrally
                                           monitor the generated logs.




                                                                                                               50
SEMIANNUAL REPORT TO CONGRESS                                                             MARCH 31, 2004



                               PROJECTED                  REPORT TITLE AND RECOMMENDATION SUMMARY
   REFERENCE                   COMPLETION             (F = FINDING NUMBER, R = RECOMMENDATION NUMBER,
     NUMBER        ISSUED        DATE                                  P = PLAN NUMBER)
   2003-30-162   August 2003                   The Regulations for Granting Extensions of Time to File are
                                               Delaying the Receipt of Billions of Tax Dollars and Creating
                                               Substantial Burden for Compliant Taxpayers

                               P-1: 08/15/05   F-1, R-1, P-1, P-2. Revise the tax regulations applicable to
                               P-2: 07/15/05   individual taxpayers.
                                 08/15/05      F-1, R-2, P-1. Consider changing the regulations to eliminate the
                                               requirement for taxpayer to file an application with the IRS in
                                               order to receive extensions of time to file a tax return.
                                 08/15/05      F-1, R-3, P-1. Revise the tax package instructions.
   2003-30-176   August 2003                   Interest Paid to Large Corporations Could Significantly Increase
                                               Under a Proposed New Revenue Procedure

                                 11/15/05      F-1, R-2, P-1. Gather pertinent information concerning the effect
                                               the proposed procedure will have on reducing the length of
                                               examinations and interest costs by conducting a pilot program
                                               to demonstrate the actual benefits that could be achieved.
   2003-40-180   August 2003                   More Information Is Needed to Determine the Effect of the
                                               Automated Underreporter Program on Improving Voluntary
                                               Compliance

                                 07/15/04      F-1, R-1, P-1. Finalize the long-term goals and related measures
                                               for the AUR Program that reflect the Program’s anticipated
                                               outcomes over time.
                                 07/15/04      F-1, R-2, P-1. Establish a consistent method to measure progress
                                               toward its long-term goals.
                                 07/15/06      F-2, R-1, P-1. Improve the current management information
                                               system process to capture data sufficient to establish baselines
                                               and long-term measures and goals.
   2003-40-185   August 2003                   More Information Is Needed to Determine the Effect of the
                                               Discretionary Examination Program on Improving Service to All
                                               Taxpayers

                                 07/15/04      F-1, R-1, P-1. Finalize the Concept of Operations that will establish
                                               long-term goals and related measures for the Discretionary
                                               Examination Program that reflect the Program’s anticipated
                                               outcomes over time.
                                 07/15/04      F-1, R-2, P-1. Establish a consistent method to measure progress
                                               toward the long-term goals.
   2003-10-187   September                     The National Taxpayer Advocate Could Enhance the
                    2003                       Management of Systemic Advocacy Resources

                                 07/15/04      F-1, R-1, P-1. Formalize the policy of concurrently working systemic
                                               advocacy projects and assignments in support of its Annual Report to
                                               Congress, and implement a process to manage both operations
                                               simultaneously.
                                 07/15/04      F-1, R-2, P-1. Establish timeliness and staff resource standards for
                                               conducting systemic advocacy projects based on the experience to
                                               date.
                                 01/01/05      F-1, R-3, P-1. Upgrade the SAMS to provide data on systemic
                                               advocacy project activities and staff resources to assist managers in
                                               monitoring and budgeting systemic advocacy resources.




                                                                                                            51
SEMIANNUAL REPORT TO CONGRESS                                                           MARCH 31, 2004



                             PROJECTED               REPORT TITLE AND RECOMMENDATION SUMMARY
   REFERENCE                 COMPLETION          (F = FINDING NUMBER, R = RECOMMENDATION NUMBER,
     NUMBER        ISSUED      DATE                               P = PLAN NUMBER)
   2003-10-201   September                Lead Development Centers Do Not Significantly Contribute to
                    2003                  Increases in Legal Source Cases

                              10/15/04    F-1, R-1, P-1. Consider increasing the use of LDC resources on
                                          general research projects.
                              04/15/04    F-2, R-1, P-1. Issue procedures for the CI field offices to follow
                                          when submitting leads or research projects to the LDCs.
                              10/15/04    F-2, R-2, P-1. Issue procedures for the LDC analysts to follow
                                          when researching cases.
                              04/15/04    F-2, R-3, P-1. Issue guidance to reemphasize the need for field
                                          offices to evaluate additional factors that affect the ability to
                                          fully investigate the lead before the lead is sent to the LDC.
                              10/15/04    F-3, R-1, P-1. Ensure the data in the LDC database are consistent
                                          and issue instructions on how to use the LDC database.

   2003-10-210   September                The Tax Fraud Hotline Has Not Been an Effective Source for
                    2003                  Criminal Tax Investigation

                              08/15/04    F-1, R-3, P-1. Revise LDC procedures to specify LDC managers
                                          co-located with the call sites should be proactive in assessing the
                                          adequacy of the preparation of Forms 3949 by call site
                                          personnel and in providing specific feedback when necessary
                                          to improve trends in completing the forms.
                              06/15/04    F-2, R-1, P-1. Develop national procedures that establish specific
                                          criteria for and guide the referral of appropriate QRP and RPP
                                          allegations from the hotline directly to the FDCs.
                              06/15/04    F-2, R-2, P-1. Revise the FDC IRM guidance to specify FDC
                                          managers co-located with the call sites should be proactive in
                                          assessing the adequacy of the preparation and referral of Forms
                                          3949 by call site personnel for QRP and RPP purposes and in
                                          providing feedback when necessary to improve trends in forms.
   2003-10-212   September                Information on Employee Training Is Not Adequate to Determine
                    2003                  Training Cost or Effectiveness

                              12/15/04    F-1, R-1, P-1. Require all business units to use the IRS training
                                          management information system as their official system of records.
                              03/15/05    F-1, R-2, P-1. Ensure the new Learning Management System has the
                                          appropriate validity checks to ensure data on training courses, costs,
                                          and CPE hours are correct, to avoid input errors.
                              03/15/05    F-1, R-3, P-1. Ensure periodic reviews of the ACES data are
                                          conducted to verify ACES data and make any needed corrections.
                              10/15/04    F-2, R-1, P-1. Develop a method of properly allocating training costs
                                          to courses and employees/students.
                              10/15/04    F-3, R-1, P-1. Ensure a better course numbering scheme is
                                          developed in the LMS to be used to identify the types of training
                                          provided and the skills addressed.
                              P-1, P-2:   F-3, R-2, P-1, P-2, P-3, P-4. Ensure the IRS training and financial systems
                              07/15/05    can provide information needed for the IRS to assess its own training
                              P-3, P-4:   efforts.
                              10/15/05




                                                                                                                   52
SEMIANNUAL REPORT TO CONGRESS                                                                 MARCH 31, 2004



                                  PROJECTED                  REPORT TITLE AND RECOMMENDATION SUMMARY
   REFERENCE                      COMPLETION             (F = FINDING NUMBER, R = RECOMMENDATION NUMBER,
     NUMBER         ISSUED          DATE                                  P = PLAN NUMBER)
   2003-20-219    September                      The Cost and Schedule Estimation Process for the Business Systems
                     2003                        Modernization Program Has Been Improved, But Additional Actions
                                                 Should Be Taken

                                   10/15/04      F-1, R-1, P-1. Ensure all contractors working on BSM projects follow the
                                                 PRIME contractor’s policies and procedures for preparing cost and
                                                 schedule estimates and provide data for inclusion in the historical
                                                 database.
                                   10/15/04      F-1, R-4, P-1. Ensure the SEI is requested to conduct an independent
                                                 review of the cost and schedule estimation system once the initial
                                                 validation is complete and policies and procedures are fully
                                                 implemented.
   2003-30-182    September                      Continued Progress Is Needed to Improve the Centralized Offer
                     2003                        In Compromise Program

                                   04/15/04      F-4, R-1, P-1. Reemphasize COIC employees should make a
                                                 thorough analysis of the case files and AOIC history entries
                                                 before returning offers.



                                    STATISTICAL REPORTS – OTHER

  Access to Information
  The Inspector General Act of 1978 requires IGs to report on unreasonable refusals of information
  available to the agency that relate to programs and operations for which the IG has responsibilities.
  As of March 31, 2004, there were no instances where information or assistance requested by Office
  of Audit was refused.

  Disputed Audit Recommendations
  The Inspector General Act of 1978 requires IGs to provide information on significant management
  decisions in response to audit recommendations with which the IG disagrees. As of March 31, 2004,
  no reports were issued where a significant recommendation was disputed.

  Revised Management Decisions
  The Inspector General Act of 1978 requires IGs to provide a description and explanation of the
  reasons for any significant revised management decisions made during the reporting period. As of
  March 31, 2004, no significant management decisions were revised.

  Audit Reports Issued in the Prior Reporting Period With No Management Response
  The Inspector General Act of 1978 requires IGs to provide a summary of each audit report issued
  before the beginning of the current reporting period for which no management response has been
  received by the end of the current reporting period. As of March 31, 2004, there were no prior
  reports where management’s response was not received.

  Review of Legislation and Regulations
  The Inspector General Act of 1978 requires IGs to review existing and proposed legislation and
  regulations and to make recommendations concerning the impact of such legislation or
  regulations. TIGTA’s Office of Chief Counsel reviewed 116 proposed regulations and legislative
  requests during this reporting period.




                                                                                                                  53
SEMIANNUAL REPORT TO CONGRESS             MARCH 31, 2004




           THIS PAGE LEFT BLANK INTENTIONALLY




                                                      54
SEMIANNUAL REPORT TO CONGRESS                                                        MARCH 31, 2004


                               APPENDIX IV – AUDIT PRODUCTS

                               OCTOBER 1, 2003 – MARCH 31, 2004



                         INSPECTOR GENERAL CONGRESSIONAL TESTIMONY
 REFERENCE NUMBER                                HEARING TITLE
   MARCH 2004
   2004-OT-084      Social Security Number and Individual Taxpayer Identification Number Mismatches and Misuse


                                          AUDIT PRODUCTS
 REFERENCE NUMBER                                     REPORT TITLE
   OCTOBER 2003
    2004-20-001     Risks Are Mounting as the Integrated Financial System Project Team Strives to Meet an
                    Aggressive Implementation Date
   2004-40-002      Key Steps Have Been Initiated, but Additional Emphasis Is Needed on the Oversight of
                    the Wage and Investment Fraud Program
   2004-40-003      The 2003 Filing Season Was Completed Timely and Accurately, but Some New Tax
                    Law Changes Were Not Effectively Implemented (Revenue Protection: $12.2 million
                    for 57,755 taxpayers; Taxpayer Rights and Entitlements: $131.8 million for 297,916
                    taxpayers)
   2004-1C-006      TIRNO-95-D-00062 and TIRNO-00-D-00011, Audit of Incurred Costs for
                     Fiscal Year 2001
   2004-1C-007      Audit of Adequacy and Compliance of Disclosure Statement Revision 13, Effective
                    January 1, 2003
   2004-1C-009      Audit of Incurred Costs for Fiscal Year 2002
   2004-40-004      The Selection of Earned Income Tax Credit Returns for Examination Can Be Improved
                    to Further Prevent Erroneous Payments
   2004-1C-008      TIRNO-94-D-00090 and TIRNO-00-D-00019, Audit of Incurred Costs for
                     Fiscal Year 2001
   2004-1C-010      TIRNO-92-C-00014, TIRNO-00-D-00024, TIRNO-99-D-0001, TIRNO-95-D-00099, and TIRNO-
                    99-R-0009, Audit of Incurred Costs for Fiscal Year 2001
   2004-1C-011      Supplemental Report on Audit of Direct and Indirect Costs for Fiscal Year 2002
   2004-40-016      Increased Taxpayer Awareness and Improved Guidance Are Needed to Ensure
                    Accurate Direct Deposit of Tax Refunds Claimed on E-Filed Tax Returns
  NOVEMBER 2003
   2004-40-013      Improvements Are Needed in the Screening and Monitoring of E-File Providers to
                    Protect Against Filing Fraud
   2004-30-005      Key Areas of Noncompliance Among Small Business and Self-Employed Taxpayers
                    Could Be Addressed Through More Effective Use of Correspondence Examinations
   2004-1C-012      Audit of the Adequacy and Compliance of Disclosure Statement, Revision Number 7
   2004-1C-015      Agreed Upon Procedures for Fiscal Years 2003 through 2005
   2004-20-014      Additional Travel Reimbursement and Accounting System Computer Program
                    Controls Would Enhance Travel Voucher Processing and Program Administration
                    (Questioned Costs: $120,726; Increased Revenue: $180,485; Inefficient Use of
                    Resources: $255,571)
   2004-1C-018      Audit of the Adequacy of Disclosure Statement, Revision Number 8
   2004-20-017      Reviews to Determine Architectural Compliance of Information Technology
                    Acquisitions Need to Be Consistently Performed and Documented




                                                                                                     55
SEMIANNUAL REPORT TO CONGRESS                                                        MARCH 31, 2004



                                          AUDIT PRODUCTS
 REFERENCE NUMBER                                     REPORT TITLE
  DECEMBER 2003
    2004-1C-019     Audit of Revised Budget for Fiscal Year 2004
    2004-1C-020     Report on Examination of Direct and Indirect Costs and Rates for Fiscal Year Ended
                    March 31, 1999
   2004-40-024      Taxpayer Assistance Center Employees Correctly Answered More Tax Law Questions
                    During July and August 2003 Than Compared to One Year Ago
   2004-1C-021      Report on Examination of Direct and Indirect Costs and Rates for Fiscal Year Ended
                    March 31, 2000
   2004-1C-022      Report on Examination of Direct and Indirect Costs and Rates for Fiscal Year Ended
                    March 31, 2001
   2004-40-025      Improvements Are Needed to Ensure Tax Returns Are Correctly Prepared at Taxpayer
                    Assistance Centers
   2004-20-026      Additional Actions Are Needed to Establish and Maintain Controls Over Computer
                    Hardware and Software Changes (Inefficient Use of Resources: $216,500)
   2004-40-029      Improvement Is Needed in E-Mail Responses to Complex Tax Questions Submitted
                    Through Toll-Free Telephone Help Lines (Taxpayer Burden: 33 of 70 test telephone calls
                    did not receive expected quality service)
   2004-40-032      Management Controls Over the Proof of Concept Test of Earned Income Tax Credit
                    Certification Need to Be Improved
   2004-40-028      The Wage and Investment Division Does Not Have a Reliable System for Identifying
                    Trends Related to Automated Underreporter Reconsideration Cases (Reliability of
                    Information: 20,225 reconsideration adjustments not captured in the FY 2001
                    Reconsideration Management Information System Report; Inefficient Use of
                    Resources: $670,872 in resources expended to process cases that could have been
                    resolved during the original resolution process)
   JANUARY 2004
   2004-40-035      Individual Income Tax Return Transactions Were Timely and Accurately Recorded to
                    Taxpayer Accounts
   2004-1C-030      Mandatory Annual Audit Requirement, Purchases Existence and Consumption
                    Verification
   2004-1C-031      Development and Implementation of an Enterprise Business System
   2004-30-023      The Internal Revenue Service’s Individual Taxpayer Identification Number Creates
                    Significant Challenges for Tax Administration (Funds Put to Better Use: $711.28 million;
                    Increased Revenue: $27.5 million; Revenue Protection: $3.4 billion and 530,000 tax
                    returns filed by unauthorized resident aliens; Taxpayer Burden: 265,000 taxpayers
                    whose Social Security Numbers are misused on Forms W-2: Taxpayer Privacy and
                    Security: 8,179 tax returns prepared by unauthorized resident aliens)
   2004-20-027      Inadequate Accountability and Training for Key Security Employees Contributed to
                    Significant Computer Security Weaknesses
   2004-30-033      The Office Audit Redesign Pilot Was Effective in Meeting Its Goals, but Its
                    Implementation Needs to Be Monitored
   2004-40-037      Taxpayer Assistance Center Employees Correctly Answered More Tax Law Questions
                    During September and October 2003 Than Compared to One Year Ago
   2004-20-041      The Reorganized Desktop Support Function Has Not Yet Achieved Planned Goals
                    (Inefficient Use of Resources: $5.6 million)
   2004-30-038      Access to the Toll-Free Telephone System Was Significantly Improved in 2003, but
                    Additional Enhancements Are Needed (Inefficient Use of Resources: $49.9 million)
   2004-40-042      The Child Tax Credit Advance Payment Was Effectively Planned and Implemented,
                    but a Programming Discrepancy Caused Some Overpayments (Inefficient Use of
                    Resources: $39 million)
   2004-20-034      Oversight of the Business Systems Modernization Contractor Needs Improvement



                                                                                                          56
SEMIANNUAL REPORT TO CONGRESS                                                        MARCH 31, 2004



                                          AUDIT PRODUCTS
 REFERENCE NUMBER                                     REPORT TITLE
    2004-30-043     Monitoring of Accepted Offers in Compromise Is Generally Effective, but Some
                    Improvement Is Needed (Increased Revenue: $1.9 million for 26 taxpayers; Taxpayer
                    Rights and Entitlements: 46 taxpayers whose Federal liens were not released after the
                    offer amount was fully paid)
   2004-30-044      Additional Efforts Could Further Improve the Execution of the National Research
                    Program
  FEBRUARY 2004
   2004-1C-047      TIRNO-00-D-00012, TIRNO-95-D-00063, and TIRNO-95-D-00064, Supplemental Report on
                    Audit of Incurred Costs for Fiscal Year 2001
   2004-1C-048      Report on Noncompliance With Cost Accounting Standard 418
   2004-1C-049      TIRNO-95-D-00061, Audit of Final Vouchers, Delivery Order Numbers 0011, 3197, and
                    4669
   2004-30-040      While Progress Toward Earlier Intervention With Delinquent Taxpayers Has Been Made,
                    Action Is Needed to Prevent Noncompliance With Estimated Tax Payment
                    Requirements (Taxpayer Rights and Entitlements: $2.1 billion reduction in penalties
                    and interest and Inefficient Use of Resources: $12.9 million reduction in collection costs
                    achievable by improving compliance through development of a reminder notice)
   2004-30-039      The Small Business/Self-Employed Division Has Taken Actions to Reduce Costly
                    Turnover Among Its Customer Service Representatives, but Improvement
                    Opportunities Still Exist (Inefficient Use of Resources: $3.3 million savings by reducing
                    cost associated with turnover of personnel)
   2004-20-036      Requirements Changes and Testing Delays Have Further Increased the Costs and
                    Delayed the Benefits of the e-Services Project (Reliability of Information: $71.9 million
                    in increased cost projections from the baseline business case projection)
   2004-1C-050      Report on Audit of Forward Pricing Indirect Rates and Facilities Capital Cost of Money
                    Factors
   2004-1C-051      Audit of Proposed Fiscal Year 2004 Direct Labor Rates
   2004-40-059      Fiscal Year 2004 Statutory Review of Restrictions on Directly Contacting Taxpayers
   2004-10-045      Review of the Tax Exempt and Government Entities Division’s Independent Review
                    Process
   2004-30-054      Consistent and Effective Manager Involvement Is Needed in Examinations of Large
                    Businesses
   2004-20-046      Sensitive Technology Information Was Posted on the Internet
   2004-40-057      Toll-Free Account Assistance to Taxpayers Is Professional and Timely, but Improvement
                    Is Needed in the Information Provided (Taxpayer Burden: 42 calls sampled in which
                    the taxpayer did not receive the correct answer; Taxpayer Privacy and Security and
                    Reliability of Information; 12 calls in which there were potential disclosure errors not
                    included in the IRS’ reported customer accuracy rate)
   2004-40-065      Accuracy Rates Have Increased at Taxpayer Assistance Centers, but Improvement Is
                    Needed to Provide Taxpayers Top-Quality Customer Service
   MARCH 2004
   2004-10-052      Improvements Are Needed for Subsequent Integrated Financial System Testing
                    The Custodial Accounting Project Team Is Making Progress; However, Further Actions
   2004-20-061
                    Should Be Taken to Increase the Likelihood of a Successful Implementation
                    The Program to Determine Worker Status for Federal Tax Purposes Needs Expanded
   2004-30-055
                    Goals and Increased Operational Oversight
                    Forms and Publications for Tax Year 2003 Properly Explain Specific Tax Law Changes
   2004-40-069
                    Affecting Individual Taxpayers
                    The Detroit Computing Center Adequately Processed Paper Bank Secrecy Act
                    Documents, but Quality Reviews Should Be Implemented to Ensure Compliance With
   2004-30-070
                    Quality Standards



                                                                                                     57
SEMIANNUAL REPORT TO CONGRESS                                                           MARCH 31, 2004



                                           AUDIT PRODUCTS
 REFERENCE NUMBER                                      REPORT TITLE
                    Preparations Were Successful for Implementation of New Business Provisions in the
   2004-30-062
                    Jobs and Growth Tax Relief Reconciliation Act of 2003
                    Courts Are Not Always Notified When Criminals Fail to Comply With Their Sentences to
   2004-10-060      Settle Civil Tax Liabilities (Reliability of Information: $6 billion in criminal deficiency and
                    fines are overstated in the management information system)
   2004-30-068      Additional Efforts Are Needed to Improve the Bank Secrecy Act Compliance Program
                    Fiscal Year 2004 Statutory Review of Disclosure of Collection Activity With Respect to
   2004-40-058
                    Joint Returns
                    Audit of Adequacy and Compliance of Disclosure Statement, Revision 14, Effective
   2004-1C-071
                    January 1, 2004
                    TIRNO-00-D-00012, TIRNO-95-D-00063, and TIRNO-95-D-00064, Supplemental Report on
   2004-1C-056
                    Audit of Incurred Costs for Fiscal Year 2001
                    The Master File Disaster Recovery Exercise Was Completed, but Significant
   2004-20-053
                    Vulnerabilities Should Be Addressed
                    Fiscal Year 2004 Statutory Audit of Compliance With Legal Guidelines Restricting the
   2004-40-066
                    Use of Records of Tax Enforcement Results
   2004-20-063      Insufficient Contractor Oversight Put Data and Equipment at Risk
   2004-1C-077      Accounting System Review
                    More Could Be Done to Make It Easier for Taxpayers to Locate Taxpayer Assistance
   2004-40-075
                    Centers
                    Appeals Complied With the Provisions of the Law for the Collection Due Process
                    (Taxpayer Rights and Entitlements: 537 cases in which hearing officers did not provide
   2004-40-067
                    a taxpayer-requested levy hearing or did not document all issues raised by the
                    taxpayer)
                    Most Taxpayers That Could Benefit From the Farm Income Averaging Provision Are
   2004-30-085      Not Using It (Taxpayer Rights and Entitlements: 64,315 taxpayers could save
                    $33,057,910)
                    Improvements Are Needed to Ensure Compliance With the Freedom of Information
   2004-40-064      Act (Taxpayer Rights and Entitlements: 1,477 incomplete IRS responses to FOIA,
                    Privacy Act and I.R.C. Section 6103 requests)
   2004-1C-078      Incurred Costs Audit for Fiscal Year Ended March 31, 2002
                    The Use of Anti-Money Laundering Referrals and Currency Transaction Information in
   2004-30-074
                    the Income Tax Examination Process Could Be Improved
                    The Area Distribution Centers’ Competitive Sourcing Submission Was Reasonable;
                    However, Improvements Could Be Made to the Overall Competitive Sourcing Process
   2004-10-082      (Reliability of Information: $38.4 million is the absolute value of recommendations to
                    improve the accuracy of the In-House Cost Estimate and Technical Performance
                    Plan)
                    The Internal Revenue Service’s Federal Financial Management Improvement Act
   2004-10-080
                    Remediation Plan as of December 31, 2003
                    Key Security Controls of the Criminal Investigation Management Information System
   2004-20-081
                    Have Not Been Implemented
   2004-20-072      Modernized e-File Project Integration Difficulties Have Delayed Its Deployment
                    Opportunities Exist to Transition Taxpayers From Submitting Computer-Prepared Tax
                    Returns on Paper to E-Filing (Inefficient Use of Resources: $537 million reduction in
   2004-40-076
                    costs to process paper returns; Taxpayer Burden: 46.7 million taxpayers that would
                    benefit from filing e-file returns)




                                                                                                               58
SEMIANNUAL REPORT TO CONGRESS                                                              MARCH 31, 2004


                         APPENDIX V – STATUTORY TIGTA REPORTING REQUIREMENTS


  Fourteen statutory audit reports that dealt with the adequacy and security of IRS technology were issued
  during this reporting period. In FY 2004, TIGTA completed five statutory reviews that are required annually
  by Internal Revenue Service Restructuring and Reform Act of 1998 (RRA 98). The following table reflects the
  status of the FY 2004 RRA 98 statutory reviews.


  REFERENCE TO STATUTORY           EXPLANATION OF THE
        COVERAGE                       PROVISION                      COMMENTS/TIGTA AUDIT STATUS

  Enforcement Statistics          An evaluation of IRS’       Reference No. 2004-40-066, March 2004
                                  compliance with             The IRS is complying with the law. A review of
  Internal Revenue Code           restrictions under          75 judgmentally sampled enforcement
  (I.R.C.)                        Section 1204 of RRA 98      employees’ performance and related
  § 7803(d)(1)(A)(i)              on the use of               supervisory documentation, prepared between
                                  enforcement statistics      October 1, 2002, and August 31, 2003, revealed
                                  to evaluate IRS             no instances of the use of records of tax
                                  employees.                  enforcement results, production quotas, or
                                                              goals to evaluate employee performance. In
                                                              all of the 75 performance files reviewed,
                                                              there was documentation the employees
                                                              were being evaluated on the fair and
                                                              equitable treatment of taxpayers. In
                                                              addition, a review of 43 statistically sampled
                                                              appropriate supervisors showed the IRS
                                                              completed the required consolidated office
                                                              certification memoranda on whether records
                                                              of tax enforcement results were used in a
                                                              prohibited manner.

  Restrictions on Directly        An evaluation of IRS’        Reference No. 2004-40-059, February 2004
  Contacting Taxpayers            compliance with             As in the prior reviews, TIGTA could not
                                  restrictions under I.R.C.   determine whether IRS employees followed
  I.R.C.                          § 7521 on directly          proper procedures to stop an interview if the
  § 7803(d)(1)(A)(ii)             contacting taxpayers        taxpayer requested to consult with a
                                  who have indicated          representative. Neither TIGTA nor the IRS
                                  they prefer their           could readily identify cases where a
                                  representatives be          taxpayer requested a representative or the
                                  contacted.                  IRS contacted the taxpayer directly and
                                                              bypassed the representative. IRS
                                                              management information systems do not
                                                              separately record or monitor direct contact
                                                              requirements, and the Congress has not
                                                              explicitly required the IRS to do so. TIGTA
                                                              does not recommend the creation of a
                                                              separate tracking system.

  Filing of a Notice of Lien      An evaluation of IRS’       Draft audit report issued.
                                  compliance with
  I.R.C.                          required procedures
  § 7803(d)(1)(A)(iii)            under I.R.C. § 6320
                                  upon the filing of a
                                  notice of lien.



                                                                                                       59
SEMIANNUAL REPORT TO CONGRESS                                                                 MARCH 31, 2004



  REFERENCE TO STATUTORY           EXPLANATION OF THE
        COVERAGE                       PROVISION                       COMMENTS/TIGTA AUDIT STATUS

  Extensions of the Statute of    Include information          Audit fieldwork in progress.
  Limitations for Assessment      regarding extensions of
  of Tax                          the statute of limitations
                                  for assessment of tax
  I.R.C.                          under I.R.C. § 6501 and
  § 7803(d)(1)(C)                 the provision of notice
                                  to taxpayers regarding
  I.R.C.                          the right to refuse or
  § 6501(c)(4)(B)                 limit the extension to
                                  particular issues or a
                                  particular period of
                                  time.


  Levies                          An evaluation of IRS’        Discussion draft audit report issued to IRS
                                  compliance with              management.
  I.R.C.                          required procedures
  § 7803(d)(1)(A)(iv)             under I.R.C. § 6330
                                  regarding levies.


  Collection Due Process          An evaluation of IRS’        Reference Number 2004-40-067, March 2004
                                  compliance with
                                                               The Appeals Officers and Settlement Officers
  I.R.C.                          required procedures
                                                               (hearing officers) substantially complied with
  § 7803(d)(1)(A)(iii) and (iv)   under I.R.C. §§ 6320
                                                               the requirements of the law when conducting
                                  and 6330 regarding the
                                                               Collection Due Process (CDP) hearings. In
                                  taxpayers’ rights to
                                                               98.5 percent of the CDP cases reviewed, the
                                  appeal lien or levy
                                                               hearing officers adequately considered the
                                  actions.
                                                               following provisions of the law. The hearing
                                                               officers obtained verification the IRS followed
                                                               the applicable laws or administrative
                                                               procedures during the lien and levy process.
                                                               They considered the issues raised by the
                                                               taxpayer. They considered if the proposed
                                                               collection actions properly balanced the need
                                                               for efficient collection of taxes with any
                                                               legitimate concerns of the taxpayer about the
                                                               intrusiveness of the liens or levies.
                                                               While the hearing officers substantially complied
                                                               with the requirements of the law when
                                                               conducting CDP hearings, the hearing officers did
                                                               not address all the issues raised by the taxpayers
                                                               in the determination letters and the summary
                                                               notice of determinations in approximately 11
                                                               percent of the cases reviewed.




                                                                                                               60
SEMIANNUAL REPORT TO CONGRESS                                                              MARCH 31, 2004



  REFERENCE TO STATUTORY        EXPLANATION OF THE
        COVERAGE                    PROVISION                       COMMENTS/TIGTA AUDIT STATUS

  Seizures                     An evaluation of IRS’       Audit fieldwork in progress.
                               compliance with
  I.R.C.                       required procedures
  § 7803(d)(1)(A)(iv)          under I.R.C. §§ 6330
                               through 6344 when
                               conducting seizures.


  Taxpayer Designations –      An evaluation of IRS’       Audit fieldwork in progress.
  Illegal Tax Protester        compliance with
  Designation and Nonfiler     restrictions under
  Designation                  Section 3707 of RRA 98
                               on designation of
  I.R.C.                       taxpayers.
  § 7803(d)(1)(A)(v)


  Disclosure of Collection     Review and certify           Reference No. 2004-40-058, March 2004
  Activities With Respect to   whether or not IRS is       This is the sixth year TIGTA could not determine
  Joint Returns                complying with I.R.C.       whether the IRS is complying with the statutory
                               § 6103(e)(8) to disclose    requirements for responding to written requests
  I.R.C.                       information to an           from joint filers, because both TIGTA and the IRS
  § 7803(d)(1)(B)              individual filing a joint   are still unable to readily identify joint filer requests
                               return on collection        received nationwide. IRS management has
  I.R.C.                       activity involving the      decided not to develop a new management
  § 6103(e)(8)                 other individual filing     control process to track joint filer requests. IRS
                               the return.                 management information systems do not
                                                           separately record or monitor joint filer requests,
                                                           and the Congress has not explicitly required the
                                                           IRS to do so. TIGTA does not recommend the
                                                           creation of a separate tracking system.


  Taxpayer Complaints          Requires TIGTA to           Statistical results on the number of taxpayer
                               include in each of its      complaints received is prepared by TIGTA’s Office
  I.R.C.                       Semiannual Reports to       of Investigations and is reflected in Appendix II.
  § 7803(d)(2)(A)              Congress the number
                                                           TIGTA’s Office of Audit’s annual review of IRS
                               of taxpayer complaints
                                                           management’s process for accumulating and
                               received and the
                                                           reporting taxpayer complaint data is currently in
                               number of employee
                                                           the audit planning process.
                               misconduct and
                               taxpayer abuse
                               allegations received by
                               IRS or TIGTA from
                               taxpayers, IRS
                               employees and other
                               sources.




                                                                                                             61
SEMIANNUAL REPORT TO CONGRESS                                                             MARCH 31, 2004



  REFERENCE TO STATUTORY         EXPLANATION OF THE
        COVERAGE                     PROVISION                     COMMENTS/TIGTA AUDIT STATUS

  Administrative or Civil       Include information        Audit fieldwork in progress.
  Actions With Respect to the   regarding any
  Fair Debt Collection          administrative or civil
  Practices Act of 1996         actions with respect to
                                violations of the fair
  I.R.C.                        debt collection
  § 7803(d)(1)(G)               provision of I.R.C.
                                § 6304, including a
  I.R.C.                        summary of such
  § 6304                        actions, and any
  Section 3466 of               resulting judgments or
  RRA 98                        awards granted.


  Denial of Requests for        Include information        Reference Number 2004-40-064, March 2004
  Information                   regarding improper         The IRS improperly withheld information from
                                denial of requests for     requesters in 4.4 percent of the Freedom of
  I.R.C.                        information from IRS,      Information Act (FOIA) and Privacy Act (PA)
  § 7803(d)(1)(F)               based on a statistically   requests, and 14.6 percent of the I.R.C. § 6103
                                valid sample of the        requests reviewed. TIGTA’s statistically valid
  I.R.C.                        total number of            samples were taken from cases closed during the
  § 7803(d)(3)(A)               determinations made        period January 1 through June 30, 2003. TIGTA
                                by the IRS to deny         estimated information was improperly withheld
                                written requests to        from responses to 369 FOIA and PA requests and
                                disclose information to    1,108 I.R.C. § 6103 requests during the sample
                                taxpayers on the basis     period.
                                of I.R.C. § 6103 or
                                5 U.S.C. § 552(b)(7).


  Adequacy and Security of      Evaluation of IRS’         Information Technology:
  the Technology of the IRS     adequacy and security
                                of its technology.         Reference No. 2004-20-001, October 2003
  I.R.C.                                                   Reference No. 2004-20-014, November 2003
  § 7803(d)(1)(D)                                          Reference No. 2004-20-017, November 2003
                                                           Reference No. 2004-20-026, December 2003
                                                           Reference No. 2004-20-034, January 2004
                                                           Reference No. 2004-20-041, January 2004
                                                           Reference No. 2004-20-036, February 2004
                                                           Reference No. 2004-20-061, March 2004
                                                           Reference No. 2004-20-072, March 2004

                                                           Security Reviews:

                                                           Reference No. 2004-20-027, January 2004
                                                           Reference No. 2004-20-046, February 2004
                                                           Reference No. 2004-20-063, March 2004
                                                           Reference No. 2004-20-081, March 2004
                                                           Reference No. 2004-20-053, March 2004




                                                                                                         62
SEMIANNUAL REPORT TO CONGRESS                                                             MARCH 31, 2004


                               APPENDIX VI – SECTION 1203 STANDARDS

  In general, the Commissioner of Internal Revenue shall terminate the employment of any employee of
  IRS if there is a final administrative or judicial determination that in the performance of official duties
  such employee committed the misconduct violations outlined below. Such termination shall be a
  removal for cause on charges of misconduct.

  Misconduct violations include:

  •   Willful failure to obtain the required approval signatures on documents authorizing the seizure of a
      taxpayer’s home, personal belongings, or business assets.

  •   Providing a false statement under oath with respect to a material matter involving a taxpayer or
      taxpayer representative.

  •   Violating, with respect to a taxpayer, taxpayer representative, or other employee of the IRS, any
      right under the Constitution of the United States, or any civil right established under Title VI or VII of
      the Civil Rights Act of 1964; Title IX of the Education Amendments of 1972; Age Discrimination in
      Employment Act of 1967; Age Discrimination Act of 1975; Section 501 or 504 of the Rehabilitation
      Act of 1973; or Title I of the Americans with Disabilities Act of 1990.

  •   Falsifying or destroying documents to conceal mistakes made by any employee with respect to a
      matter involving a taxpayer or taxpayer representative.

  •   Committing assault or battery on a taxpayer, taxpayer representative, or other employee of the
      IRS, but only if there is a criminal conviction, or a final judgment by a court in a civil case, with
      respect to the assault or battery.

  •   Violating the Internal Revenue Code of 1986, Treasury regulations, or policies of the IRS (including
      the Internal Revenue Manual) for the purpose of retaliating against, or harassing a taxpayer,
      taxpayer representative, or other employee of the IRS.

  •   Willfully misusing provisions of Section 6103 of the Internal Revenue Code of 1986 for the purpose of
      concealing information from a Congressional inquiry.

  •   Willfully failing to file any return of tax required under the Internal Revenue Code of 1986 on or
      before the date prescribed therefore (including any extensions), unless such failure is due to
      reasonable cause and not to willful neglect.

  •   Willfully understating Federal tax liability, unless such understatement is due to reasonable cause
      and not to willful neglect.

  •   Threatening to audit a taxpayer for the purpose of extracting personal gain or benefit.

  In general, the Commissioner of Internal Revenue may take a personnel action other than
  employment termination for the misconduct violations outlined above. The exercise of this authority
  shall be at the sole discretion of the Commissioner and may not be delegated to any other officer.
  The Commissioner, in his/her sole discretion, may establish a procedure that will be used to
  determine whether an individual should be referred to the Commissioner for a determination by the
  Commissioner. Any determination of the Commissioner in these matters may not be appealed in
  any administrative or judicial proceeding.




                                                                                                           63
SEMIANNUAL REPORT TO CONGRESS                       MARCH 31, 2004




          HOTLINE INFORMATION



           Call our toll-free hotline to report
                 fraud, waste, or abuse:


                   1-800-366-4484

                                or write:

        Treasury Inspector General for
             Tax Administration
                P.O. Box 589
             Ben Franklin Station
        Washington, D.C. 20044-0589

                  Information is confidential and
                    you may remain anonymous




                                                                64
